<html>
<title> - VOTING RIGHTS ACT: SECTION 203</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    VOTING RIGHTS ACT: SECTION 203--
                    BILINGUAL ELECTION REQUIREMENTS
                               (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    NOVEMBER 9 AND NOVEMBER 10, 2005

                               __________

                           Serial No. 109-78

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-505                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Arizona                JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                 Kimberly Betz, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 9, 2005

                               WITNESSES

                                                                   Page
Ms. Jacqueline Johnson, Executive Director, National Congress of 
  American Indians
  Oral Testimony.................................................     3
  Prepared Statement.............................................     5
Mr. K.C. McAlpin, Executive Director, ProEnglish
  Oral Testimony.................................................    63
  Prepared Statement.............................................    67
Mr. James Thomas Tucker, Attorney, Ogletree Deakins, P.C., 
  Adjunct Professor, Barrett Honors College at Arizona State 
  University, Phoenix, Arizona
  Oral Testimony.................................................    76
  Prepared Statement.............................................    78
Mr. Juan Cartagena, General Counsel, Community Service Society
  Oral Testimony.................................................   134
  Prepared Statement.............................................   137

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Steve Chabot, a 
  Representative in Congress from the State of Ohio, and 
  Chairman, Subcommittee on the Constitution.....................   177
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Member, Subcommittee on the Constitution.......................   177
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   179
Inserted into the Record by Mr. Chabot on November 18, 2005:
    Prepared Statement of Chris Norby, Supervisor, Fourth 
      District, Orange County Board of Supervisors...............   184
    Prepared Statement of Arturo Vargas, Executive Director, 
      National Association of Latino Elected and Appointed 
      Officials (NALEO) Educational Fund.........................   199
    Voting Rights Cases Brought on Behalf of American Indians 
      and/or Interpreting the Voting Rights Act re: Indian 
      Interests. From Jennifer Robinson, Daniel McCool, and Susan 
      Olson: Native Vote: American Indians, the Voting Rights 
      Act, and the Right to Vote. Forthcoming. Cambridge 
      University Press, 2006.....................................   259


                    VOTING RIGHTS ACT: SECTION 203--
                    BILINGUAL ELECTION REQUIREMENTS
                               (Part II)

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2005

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pusuant to notice, at 5:10 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Steve 
Chabot (Chair of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order.
    Okay. We want to thank the witnesses for being here this 
afternoon. This is the Subcommittee on the Constitution. I'm 
Steve Chabot, the Chairman. This is our eighth in a series of 
hearings relative to the Voting Rights Act and its 
reauthorization.
    This is the second hearing we've had here this afternoon. 
The Chair would request and ask unanimous consent that we waive 
opening statements from Members up here and get right to the 
panel.
    Hearing no objection, so ordered.
    I will move directly then to the introduction of our panel 
of distinguished witnesses here this afternoon, soon to be this 
evening.
    Our first witness will be Ms. Jacqueline Johnson, Executive 
Director of the National Congress of American Indians. As 
Executive Director, Ms. Johnson is responsible for monitoring 
all Federal policy issues that affect tribal governments, 
coordinating communication among tribal governments, and 
overseeing consensus-based policy developments among NCAI's 
250-member tribal governments.
    Prior to joining NCAI, Ms. Johnson served as Deputy 
Assistant Secretary for Native American Programs at the U.S. 
Department of Housing and Urban Development; was Executive 
Director of the Tlingit Haida Regional--I apologize if I've 
butchered that pronunciation--Housing Authority, headquartered 
in Juneau, Alaska; served as Chairperson of the National 
American Indian Housing Counsel, and was appointed to the 
National Commission on American Indian, Alaskan Native, and 
Native Hawaiian Housing.
    In addition, Ms. Johnson serves on a number of boards and 
national executive committees, and continues to be involved in 
American Indian youth development, having served as the 
Director of a Native Youth Culture Camp for 13 years.
    Ms. Johnson is a member of the Raven-Sockeye Clan of the--
would you pronounce that tribe? I want to make sure I don't 
mispronounce it again. Is it?
    Ms. Johnson. Tlingit.
    Mr. Chabot. Tlingit. Okay. Tribe. Thank you very much.
    Our second witness will be Mr. K.C. McAlpin.
    Mr. McAlpin currently serves as the Executive Director of 
ProEnglish, a national non-profit group dedicated to preserving 
English as the common language, and to making it the official 
language of the United States.
    Prior to his public interest work with ProEnglish, Mr. 
McAlpin worked for an oil company in South America, Central 
America, and the Caribbean, and served as a financial analyst 
for a Fortune 500 company, and as an international controller 
for a high-tech company.
    Mr. McAlpin is a frequent guest on radio and television, 
including Good Morning America, Fox Morning News, CNN News, C-
SPAN, Both Sides with Jesse Jackson, and the Lou Dobbs Show. We 
welcome you here also, Mr. McAlpin.
    Our third witness is Mr. James Tucker. Mr. Tucker is a 
former trial attorney with the U.S. Department of Justice, 
Civil Rights Division, where he focused on voting issues.
    While at the Department, Mr. Tucker was responsible for 
litigating several redistricting cases, including those in 
Georgia and North Carolina, as well as cases involving section 
203, Federal Observer Coverage and Contempt Proceedings.
    Mr. Tucker also has litigation experience in employment 
cases brought under Federal statute, such as the title VII of 
the Civil Rights of 1964, the Americans with Disabilities Act, 
the Age Discrimination and Employment Act, the Family and 
Medical Leave Act, and the Fair Labor Standards Act.
    Mr. Tucker is a former law clerk to Chief U.S. District 
Judge Lawrence Paul of the North District of Florida, and is a 
former Air Force veteran, serving on AWACS during Desert Storm, 
operations in the Persian Gulf, and in the active reserves as 
an Assistant Staff Judge Advocate. We welcome you here also, 
Mr. Tucker.
    Our fourth and final witness is Mr. Juan Cartagena. Am I 
pronouncing that correctly? Thank you.
    Mr. Cartagena is General Counsel for the Community Service 
Society, a position he has held since 1991. As General Counsel, 
Mr. Cartagena is responsible for directing the legal department 
and public interest litigation on behalf of the poor in the 
areas of voting rights, education, housing, health, and 
environmental issues.
    Prior to his work at CSS, Mr. Cartagena was the Legal 
Director in the New York Office of the Department of Puerto 
Rican Affairs in the U.S. for the Commonwealth of Puerto Rico, 
and served as an attorney for the Puerto Rican Legal Defense 
and Education Fund.
    Mr. Cartagena has also served as a municipal court judge in 
Hoboken, New Jersey, and is a part-time lecturer at Rutgers 
University, Department of Puerto Rican and Hispanic Caribbean 
Studies. And we welcome you here also, Mr. Cartagena.
    I also want to note that without objection, all Members 
will have 5 legislative days to submit additional materials for 
the record, and I also note that Mr. Nadler has asked unanimous 
consent--will be granted unanimous consent to enter his written 
statement into the record, as all other Members will also have 
that opportunity should they chose to do so.
    Mr. Chabot. For those who may not have testified, I'll be 
very brief in this explanation.
    We have what's called the 5-minute rule. There are two 
devices there that will have lights on them shortly. For 4 
minutes, the green light will be on. The yellow light will come 
on. That let's you know you have 1 minute to wrap up. And the 
red light will come on, we'd ask you to wrap up by then, if 
possible. We won't gavel you down immediately. But try to stay 
within that as much as possible.
    We also are limited to 5 minutes, and we apologize 
profusely for running late, but we had votes during the last 
hearing, and that ran us behind. And we also have three votes 
coming up here in a very short time, so we may be further 
delayed. And again, please accept our sincere apologies for 
that.
    For those of you who may not have also testified before, it 
is the policy of this court to swear in all witnesses, so if 
you would please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Chabot. All witnesses have indicated in the 
affirmative, and we're now ready for our first witness, so, Ms. 
Johnson, you're recognized for 5 minutes.

 TESTIMONY OF JACQUELINE JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Johnson. Kus'een yu xat du wasaak. Lu kaa adi aya xat. 
Kogwaantan yadei. Veith Lit daax.
    In my own language, Tlingit, I introduced myself and my 
Tlingit name is Kus'een, and I come from the village outside of 
Haines, Alaska, Chilkoot, and I come from the Raven-Sockeye 
house.
    Thank you, Mr. Chairman and other Members of the 
Subcommittee, for me being able to testify on behalf of the 
National Congress of American Indians and the Native American 
Rights Fund.
    I appreciate this opportunity to express our support for 
the reauthorization of all the provisions in the Voting Rights 
Act that are scheduled to expire in 2007, and in particular, 
I'm going to testify today on the reauthorization of section 
203, the Continuing Need for the Minority Language Assistance 
Provisions, which recognizes the indigenous languages 
throughout Indian country.
    Since 1944, the National Congress of American Indians has 
worked diligently to strengthen and protect and inform the 
public and Congress on the governmental rights of American 
Indians and Alaska Natives.
    NCAI is the oldest and the largest national organization 
addressing American Indians' interests, representing over 250-
member tribes throughout the U.S.
    Since 1971, the Native Americans Rights Fund has provided 
legal and technical service to individuals, groups, and 
organizations on major issues facing Native people. NARF has 
become one of the largest Native non-profit legal advocacy 
organizations in the United States.
    Last week, at the NCAI Annual Session in Tulsa, Oklahoma, 
tribal leaders throughout the country passed a resolution 
calling upon Congress to reauthorize and expand the Minority 
Language Provisions of the Voting Rights Act. This resolution 
is attached and submitted as part of my written record.
    Native Americans were historically disenfranchised people. 
Although Native Americans have inhabited North America longer 
than other segment of the American society, they were the last 
group to receive the right to vote when the United States 
finally made them citizens in 1924. And even after 1924, 
certain States with large Native populations barred Native 
Americans from voting by setting discriminatory voter 
registration requirements; for example, various States denied 
Indians the right to vote because they were under guardianship, 
or Indians were denied the right to vote because they could not 
prove that they were civilized by moving off the reservation 
and renouncing their tribal ties.
    New Mexico was that last State to remove all expressed 
legal impediments to voting for Native Americans in 1962, 3 
years before the passage of the Voting Rights Act.
    In addition, Native Americans have experienced many of the 
discriminatory tactics that kept the African-Americans in the 
South from exercising the franchise.
    With the passage of the 1965 Voting Rights Act, Congress 
took the first steps necessary to start the process to 
remedying the history of discrimination and disenfranchisement. 
While we have made tremendous progress in the last 40 years, we 
still have a long ways to go.
    When the Voting Rights Act came up for reauthorization in 
1975, Congress took another major step in adding section 203 to 
the Voting Rights Act.
    Congress did so based upon its finding that educational 
inequality and racial discrimination prohibited full 
participation in the democratic process by Native Americans, 
Alaska Natives, and other language minority groups.
    In 1992, Congress moved forward again, passing the Voting 
Rights language amendments, the provisions which are the 
subject of today's hearing.
    At that time, Congress heard testimony from members of--a 
number of leaders across Indian country, all whom testified the 
importance of the Minority Language Provisions to Native 
communities. NCAI and NARF offered joint testimony in 1992, as 
well as documented the persistent educational inequalities and 
discrimination in voting that persists today.
    While significant progress has been made in franchising 
Native Americans, the need for section 203 has not diminished 
in the years since Congress has added that section to the 
Voting Rights Act.
    The value of section 203 to Indian country cannot be 
overstated. Today, to the new determinations released by the 
Census Bureau in July of 2002, 88 jurisdictions in 17 States 
are covered jurisdictions that need to provide language 
assistance to American Indians and Alaska Natives.
    Section 203 has resulted in the filing of numerous minority 
language assistance cases involving American Indians and the 
vast majority being resolved by consent decree with covered 
jurisdictions agreeing to provide the necessary translations of 
written voter materials or the necessary oral assistance in 
polling places.
    While no one knows exactly how many Native language 
speakers live in the U.S. today, the language provisions of 203 
continue to be critical for many Native communities.
    In many Native communities, tribal business is conducted 
exclusively or primarily in their own Native language, while 
many people, particularly our elders, speak English only as a 
second language. Even if they have English language skills, 
many Indian people still have and say that they feel more 
comfortable speaking in their own Native language and are 
better to understand the complicated ballot issues in their 
Native language.
    Furthermore, it is the policy of the Federal Government, as 
expressed by the Native American Languages Act of 1990, to 
preserve, protect, and promote the rights and freedom of Native 
Americans to use, practice, and develop Native American 
languages.
    The Native American Language Act was the first and may be 
the only Federal law to guarantee the right of language 
minority groups to use its language in public proceedings. 
Disenfranchising Native Americans by failing to provide 
language assistance in the electoral process to those who need 
it would certainly violate the statutory right.
    Section 203 ensures Native people, particularly our elders, 
many who speak English poorly, have access to the ballot box.
    As we continue today, I hope that you continue to encourage 
and to be able to ensure that the Native language provisions, 
or the language provisions in section 203 are maintained. Thank 
you.
    [The prepared statement of Ms. Johnson follows:]

                Prepared Statement of Jacqueline Johnson

                              INTRODUCTION

    Thank you Mr. Chairman and members of the Subcommittee. On behalf 
of the National Congress of American Indians (NCAI) and the Native 
American Rights Fund (NARF), I appreciate this opportunity to express 
our support for reauthorization of all of the provisions in the Voting 
Rights Act that are scheduled to expire in 2007; and in particular, to 
testify today in support of reauthorization of Section 203 and the 
continuing need for the minority language assistance provisions 
throughout Indian country.
    Since 1944, the National Congress of American Indians has worked 
diligently to strengthen, protect and inform the public and Congress on 
the governmental rights of American Indians and Alaskan Natives. NCAI 
is the oldest and largest national organization addressing American 
Indian interests, representing more than 250 member tribes throughout 
the United States. Since 1971, the Native American Rights Fund has 
provided legal and technical services to individuals, groups and 
organizations on major issues facing Native people. NARF has become one 
of the largest Native non-profit legal advocacy organizations in the 
United States, dedicating its resources to the preservation of tribal 
existence, the protection of tribal natural and cultural resources, the 
promotion of human rights and the accountability of governments to 
Native Americans.

             TESTIMONY--SECTION 203 SHOULD BE REAUTHORIZED

    Last week at the NCAI Annual Session in Tulsa, Oklahoma, tribal 
leaders from across the nation passed a Resolution calling upon the 
Congress to re-authorize and expand the minority language provisions of 
the Voting Rights Act. This resolution is attached and submitted for 
the record. Native Americans were an historically disenfranchised 
people. Although Native Americans have inhabited North America longer 
than any other segment of American-society, they were the last group to 
receive the right to vote when the United States finally made them 
citizens in 1924. Even after 1924, certain states with large native 
populations barred Native Americans from voting by setting 
discriminatory voter registration requirements. For example, various 
states denied Indians the right to vote because they were ``under 
guardianship,'' or Indians were denied the right to vote unless they 
could prove they were ``civilized'' by moving off of the reservation 
and renouncing their tribal ties. New Mexico was the last State to 
remove all express legal impediments to voting for Native Americans in 
1962, three years before the passage of the Voting Rights Act. In 
addition, Native Americans have experienced many of the discriminatory 
tactics that kept African-Americans in the South from exercising the 
franchise.
    With the passage of the 1965 Voting Rights Act, Congress took the 
first necessary steps to start the process of remedying this history of 
discrimination and disenfranchisement. While we have made tremendous 
progress in the last 40 years, we still have a long way to go. When the 
Voting Rights Act came up for reauthorization in 1975, Congress heard 
extensive testimony regarding voting discrimination suffered not just 
by African-Americans, but also by Hispanics, Asian-Americans and 
American Indians. As a result, Congress took another major step by 
adding section 203 to the Voting Rights Act. Congress did so based on 
its finding that educational inequality and racial discrimination 
prohibited full participation in the democratic process by Native 
Americans, Alaskan Natives and other language minority groups.
    In 1992, Congress moved forward again, passing the Voting Rights 
Language Assistance Amendments--the provisions which are the subject of 
today's hearing. Under the 1992 amendments, Congress strengthened the 
triggering mechanism of section 203 by adding a numerical threshold 
provision and by adding the so-called ``Indian trigger''--wherein a 
state or political subdivision is ``covered'' if it contains all or any 
part of an Indian reservation where more than five percent of the 
American Indian or Alaskan Native voting age population are members of 
a single language minority and have limited English proficiency. In 
1992, Congress heard testimony from a number of leaders from across 
Indian Country, all of whom testified about the importance of the 
minority language provisions to Native communities. NCAI and NARF 
offered joint testimony at that time as well and documented persistent 
educational inequities and discrimination in voting that persist today. 
In passing the 1992 Language Assistance Amendments, Congress clearly 
recognized the need for language assistance in American Indian and 
Alaskan Native communities.
    While significant progress has been made in enfranchising Native 
Americans, the need for Section 203 has not diminished in the years 
since Congress added that section to the Voting Rights Act. 
Historically disenfranchised, Native Americans continue to need and to 
use language assistance in the electoral process today. This assistance 
enables those who understand their own language better than they 
understand English to effectively participate in the democratic 
process. The value of Section 203 to Indian country cannot be 
overstated. Today, according to the new determinations released by the 
Census Bureau in July 2002, eighty-eight (88) jurisdictions in 
seventeen (17) states are covered jurisdictions that need to provide 
language assistance to American Indians and Alaskan Natives. Section 
203 has resulted in the filing of numerous minority language assistance 
cases involving American Indians, with the vast majority being resolved 
by consent decree with the covered jurisdictions agreeing to provide 
the necessary translations of written voter materials, or the necessary 
oral assistance at polling places.\1\
---------------------------------------------------------------------------
    \1\ See e.g., U.S. v. Bernalillo County, No. 98-156-BB/LCS (D.N.M. 
July 1, 2003); U.S. v. Arizona, No. 88-1989-PHX EHC (D.Ariz. May 22 
1989, amended September 27, 1993); and U.S. v. San Juan County, No. C-
83-1287 (D.Utah Oct. 11, 1990).
---------------------------------------------------------------------------
    While no one knows exactly how many Native American language 
speakers live in the U.S. today, the language provisions of Section 203 
continue to be critical for many Native communities. In many Native 
communities, tribal business is conducted exclusively or primarily in 
Native languages. Many Native people, particularly our elders, speak 
English only as a second language. Even if they have English language 
skills, many Indian people have said that they feel more comfortable 
speaking their Native language and are better able to understand 
complicated ballot issues in their Native language. Furthermore, it is 
the policy of the federal government, as expressed in the Native 
American Languages Act of 1990 (NALA) to ``preserve, protect, and 
promote the rights and freedom of Native Americans to use, practice, 
and develop Native American languages.'' \2\ The NALA was the first, 
and may be the only, federal law to guarantee the right of a language 
minority group to use its language in ``public proceedings.'' 
Disenfranchising Native Americans by failing to provide language 
assistance in the electoral process to those who need it would surely 
violate this statutory right. Section 203 ensures all Native people, 
particularly our elders, many of whom speak English poorly if at all, 
have access to the ballot box. At the same time, it recognizes the 
importance of preserving and honoring indigenous languages and 
cultures.
---------------------------------------------------------------------------
    \2\ 25 U.S.C. 2901, et seq.
---------------------------------------------------------------------------
    Traditionally, voter participation rates by American Indians and 
Alaskan Natives have always been among the lowest of all communities 
within the United States. While voter registration and turnout by 
Native American voters is still below non-Native averages in many parts 
of the country, many Native communities have seen steady, even 
significant increases, since the passage of the Voting Rights Act. In 
recent years, there has been a steady increase in the number of Native 
American candidates who are being elected to local school boards, 
county commissions and state legislatures.
    In 2004, the National Congress of American Indians spearheaded a 
groundbreaking campaign to register and turn out a record number of 
American Indian and Alaskan Native voters. Known as ``Native Vote 
2004,'' NCAI, in collaboration with various national and regional 
organizations, local tribal governments, urban Indian centers and, most 
important, many grassroots organizations throughout Indian country, 
coordinated an extensive national non-partisan effort to mobilize the 
Native vote and to ensure that every Native vote was counted. The 
culmination of the Native Vote 2004 efforts on November 2nd was a 
resounding moment for tribal governments nationwide, as it empowered 
Native voters and raised the profile of Native issues in the eyes of 
politicians.
    In the appendices to our testimony, we have provided a copy of our 
study: Native Vote 2004: A National Survey and Analysis of Efforts to 
Increase the Native Vote in 2004 and the Results Achieved. To our 
knowledge, this report is the first of its kind in Indian country. This 
study provides background information, Native voter participation data 
and election results for eight states: Alaska, Arizona, Minnesota, 
Montana, New Mexico, South Dakota, Washington and Wisconsin. Each 
assessment provides invaluable information regarding how the Voting 
Rights Act is working in Indian country, and the challenges that still 
lie ahead.
    We anticipate that the substance of this report will provide, in 
part, the evidentiary basis underlying the need to strengthen and 
extend the Voting Rights Act. At its essence, the research shows a 
direct correlation between focused localized commitments to increasing 
voter participation rates in Native communities and the actual 
increases that result. I submit to you that Section 203 is an essential 
component to ensuring the success of such focused localized commitments 
in our Native communities. Thank you.

                              ATTACHMENT 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chabot. Thank you very much. The gentlewoman's time has 
expired.
    I'd like to explain what's going on here. The bells 
indicate that we've been called to the floor for a series of 
votes. Unfortunately, those series of votes are going to extend 
over probably an hour's period of time, so we have somewhat of 
a dilemma here. We could come back after an hour, which would 
inconvenience the panel obviously even more than they've 
already been inconvenienced.
    We've come up with possible plan, and what we have 
indicated, and I think the minority side is agreeable with this 
is that we would allow the witnesses to submit their testimony 
in writing. We would then have access to all that, read it, and 
then be able to submit questions to the panel, and if you all 
would be willing to get those questions back to us.
    The alternative to that is to come back or to have another 
hearing on another date, but we don't want to inconvenience the 
panel there as well.
    And I would at this point yield to perhaps the Ranking 
Minority, Mr. Conyers, to perhaps get his input. I think the 
staff has indicated they were--they had talked to Mr. Nadler, 
and he's agreeable to submitting in writing and not having 
another.
    Mr. Conyers. Mr. Chairman, I have no objection to that 
procedure.
    Mr. Chabot. Okay. Is there--members of the witness panel 
okay with that? Would you be willing to submit in writing your 
statements?
    Ms. Johnson. Sure.
    Mr. Chabot. I think all the witnesses are indicating in the 
affirmative. We will then submit to you in writing our 
questions, and if you could get those responses back to them, 
they will all be entered into the record, just as if this had 
been done orally.
    I apologize for any inconvenience, but it would be 
inconvenient really any way we handled this at this point, and 
because of the lateness of the hour, I think probably this is 
the best solution under the circumstances.
    So if there's no further business to come before this 
Committee, that will be the process that we'll follow. And, 
again, I want to apologize to the panel, but we will do this in 
writing just as we would have done it orally had you been here.
    Mr. Cartagena?
    Mr. Cartagena. Yes, Mr. Chairman. Just one quick question--
--
    Mr. Chabot. Yes.
    Mr. Cartagena. --for clarification. Would it be possible 
for each one of us members of this panel to receive each 
other's submission, because many times the questions that you 
will ask are----
    Mr. Chabot. Absolutely.
    Mr. Cartagena. --informed by the positions taken by other 
members.
    Mr. Chabot. Absolutely. And we'll rather than have the 
questions come at you from different angles, we'll have the 
staff get these all together so you get our questions all at 
one time together, and we'll make sure that you all are 
provided with each other's statements as well.
    I think Mr. Nadler is in agreement as well.
    Mr. Nadler. Yes. He's in accord.
    Mr. Chabot. Is in accord. So we're all in agreement? So if 
there is no further business to come before the Committee, 
we're adjourned.
    Thank you
    [Whereupon, at 5:26 p.m., the Subcommittee was adjourned.]


                    VOTING RIGHTS ACT: SECTION 203--
                    BILINGUAL ELECTION REQUIREMENTS
                          (Part II--Continued)

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2005

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:05 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Steve 
Chabot (Chair of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come back to order.
    I, first of all, want to apologize again to our witness 
panel for being interfered with by the votes on the floor, 
which of course occurs periodically around here, but since we 
had two hearings on the Voting Rights Act scheduled yesterday, 
and the first one pushed into the second one, it made things, 
unfortunately, a little more awkward than they otherwise would 
have been. And I want to also indicate again that we had 
essentially come up with a procedure where we would submit 
questions in writing. The panel was gracious enough to be 
willing to come back and testify again today. I expect other 
members of the panel to arrive here shortly.
    We only have this room until 10 o'clock because there is 
already a previously scheduled hearing on the Subcommittee on 
Crime, and it is at 10 o'clock.
    When we ended yesterday, Ms. Johnson had already given her 
opening statement. We will now go to the other members of the 
witness panel who have already been sworn in. We had already 
waived opening statements up here and agreed, because of the 
shortness of time, that we would go immediately to questions 
after the statements. So without objection, we will continue 
that.
    And at this point, Mr. McAlpin, I will go to you for your 
opening statement. And again, it is a 5-minute opening 
statement. Thank you.

   TESTIMONY OF K.C. McALPIN, EXECUTIVE DIRECTOR, PROENGLISH

    Mr. McAlpin. Mr. Chairman and distinguished Members of the 
Committee, thank you for the opportunity to present our views 
on renewing the bilingual ballot provisions of the Voting 
Rights Act.
    ProEnglish is a national organization whose mission is to 
defend English as the common language of our country and to 
make it the official language at all levels of government.
    Mr. Chairman, I want to thank you for your leadership in 
the struggle to make English our official language, a position 
endorsed by 79 percent of voters and 81 percent of immigrants, 
according to the most recent poll.
    Bilingual ballots are a costly, unfunded mandate that 
function like a tax on English-speaking Americans. Two separate 
General Accounting Office reports to Congress found solid 
evidence that in most jurisdictions covered by sections 203 and 
4(f)(4), bilingual ballots are hardly used, and where they are 
used, their use scarcely justifies the cost and effort needed 
to provide them.
    In my written testimony, which I ask that you include in 
the official Committee record, I give a number of reasons why 
we think the bilingual ballot, provisions of the Voting Rights 
Act should not be reauthorized, but in the time I have, I want 
to focus on four.
    First, the rationale for providing bilingual ballots is no 
longer valid. The reasons that persuaded Congress to add 
bilingual ballot provisions to the Voting Rights Act 10 years 
after it was enacted had nothing to do with voting rights 
discrimination; rather, supporters told Congress that certain 
language minority groups had not had access to equal 
educational opportunities in this country. Those were Alaska 
Natives, American Indians and American citizens of Asian or 
Hispanic descent. Backers said this lack of opportunity had 
caused these groups' literacy rate to be below the national 
average, and argued that they needed help while the educational 
system caught up. This is why Congress intended bilingual 
ballots to be a temporary remedial measure.
    Thirty years later the driving factor behind the literacy 
rate of the two largest of these groups, Asians and Hispanics, 
has little to do with educational opportunities in this 
country. I want to make a distinction between these two groups 
and American Indians and Alaskan Natives, which I discuss in my 
written testimony.
    In 1975, the vast majority of our Hispanic and Asian 
citizens were Natives; today the situation has changed. 
Immigrants are now by far the biggest component in these groups 
and the dominant factor affecting their English literacy rates.
    Recent studies suggest that the main reason for the 
elevated school drop-out rates among these groups is the lack 
of educational opportunities they experienced in their Native 
countries before emigrating. It is wrong to impose 
extraordinary election costs on American taxpayers because of 
the voluntary decisions of millions of people to move here, and 
we see no justification for continuing a remedy whose reason 
for being is completely out of date.
    Second, bilingual ballots should not be necessary. For 
almost 100 years, immigrants have been required to know English 
in order to naturalize. This is appropriate for a country whose 
Constitution and founding documents were written in English, 
whose three branches of government operate almost completely in 
English, and whose political life is conducted almost entirely 
in the English language.
    So why are we forcing States and counties to provide 
bilingual ballots for naturalized citizens who should be able 
to read and understand English? If people are circumventing the 
law and naturalizing without learning English, then it is their 
responsibility to deal with the consequences, not the 
responsibility of the American people.
    Bilingual ballots are also an affront to millions of 
naturalized American citizens who emigrated to this country, 
played by the rules, and made great sacrifices to learn 
English.
    Third, bilingual ballots and poll workers also increase the 
risk of election fraud. There is no doubt that language is an 
effective way to conceal illegal activity. From the Departments 
of Motor Vehicles in various States to the U.S. Prison at 
Guantanamo Bay, Cuba, interpreters have been caught using 
language as a cover to break the law and even commit espionage. 
Bilingual voter outreach materials, voter registration forms, 
absentee ballots and the like all increase the risk that non-
citizens will register and vote either accidentally or in 
deliberate violation of the law. In recent years there have 
been a growing number of cases in which noncitizens have been 
caught illegally registering and voting.
    Mr. Chairman, bilingual ballots also undermine our national 
unity. We are in the midst of the largest and most diverse flow 
of immigration in our Nation's history. As the distinguished 
Chair of the U.S. Commission on Immigration Reform and a former 
Member of this House, the late Barbara Jordan, said in 
testifying to Congress, quote, cultural and religious diversity 
does not pose a threat to the national interest as long as 
public policies ensure civic unity.
    Removing incentives to learn English does not help ensure 
our civic unity; instead, such policies discourage assimilation 
and encourage the formation of linguistically isolated 
immigrant communities that are outside the mainstream of 
American life. The violence that has broken out in immigrant 
neighborhoods across France should be a wake-up call about the 
danger to a society when assimilation breaks down.
    Now, for the record, I want to say emphatically that my 
organization supports the right of all citizens to vote, but 
the relatively few citizens who cannot understand English have 
the same remedies to help them vote that millions of English-
speaking illiterates have; they can request an absentee ballot 
and get help to understand it, they can take a crib sheet or 
premarked paper ballot with them when they vote, and they have 
the right to take an interpreter into the poll with them. The 
law states any voter who requires assistance to vote by reason 
of blindness, disability or inability to read or write may be 
given assistance by a person of the voter's choice. These are 
remedies available to non-English-speaking voters, regardless 
of whether they live in a covered jurisdiction and regardless 
of whether or not they happen to be members of one of the 
covered groups. They are more than adequate to protect the 
right of qualified voters who have difficulty reading and 
understanding English to cast a ballot.
    Finally, I want to say that requiring citizens to vote 
using ballots in English discriminates against no one on the 
basis of race, ethnicity or national origin. No matter how you 
try, you cannot equate these terms with the language someone 
speaks. English is spoken as the first language by people of 
every race, every ethnicity and by dozens of national origins. 
English is the official language in 51 different nations, most 
of which are located in Africa, Asia and the Caribbean. And 
there are countless examples of racial or ethnic groups as well 
as nations that speak many different languages.
    Thank you, Mr. Chairman, for the opportunity to present our 
views.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. McAlpin follows:]

                   Prepared Statement of K.C. McAlpin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Before we move to our next witness, I just 
wanted to recognize a distinguished gentleman that is with us 
here this morning, a former Member of the House of 
Representatives, Congressman John Buchanan from Alabama, who is 
a member of the National Commission on Voting Rights Act, and 
we welcome you, Representative Buchanan.
    And now we will move to our next witness. Mr. Tucker, you 
are recognized for 5 minutes.

 TESTIMONY OF JAMES TUCKER, ATTORNEY, OGLETREE DEAKINS, P.C., 
  ADJUNCT PROFESSOR, BARRETT HONORS COLLEGE AT ARIZONA STATE 
                  UNIVERSITY, PHOENIX, ARIZONA

    Mr. Tucker. Mr. Chairman and Members of the Subcommittee, 
thank you for your invitation to testify on a matter of 
critical importance to all Americans, reauthorization of the 
temporary provisions of the Voting Rights Act that will expire 
in August of 2007. My comments will focus on sections 4(f)(4) 
and 203 of the act.
    The language assistance provisions of the Voting Rights Act 
received strong bipartisan support each time Congress 
previously considered them in 1975, 1982 and 1992. The same 
holds true today, as members of both parties and the 
Subcommittee have recognized by addressing the continuing need 
for these two sections nearly 2 years before they expire.
    I want to begin by briefly addressing the constitutionality 
of the language assistance provisions of the Voting Rights Act, 
since that issue came up on Tuesday. The reason no one has 
challenged these provisions is simple: The United States 
Supreme Court resolved the issue 39 years ago in Katzenbach v. 
Morgan when it upheld section 4(e) of the act. The State of New 
York argued that section 4(e) of the act was unconstitutional 
as applied to New York, which had passed an English language 
requirement for voting to give language minorities an incentive 
to learn English.
    The Court rejected that assertion, finding that Congress 
may have, quote, questioned whether denial of a right being so 
precious and fundamental in our society was a necessary or 
appropriate means of encouraging persons to learn English or 
furthering the goal of an intelligent exercise of the 
franchise.
    Katzenbach upheld the language assistance provisions as the 
valid exercise of congressional enforcement powers under the 
14th and 15th amendments, which the Court recognize give, 
quote, the same broad powers expressed in the necessary and 
proper clause.
    In 1975, Congress relied upon section 4(e) as the 
foundation for sections 4(f)(4) and 203. Congress noted its 
constitutional exercise of its enforcement powers by expressly 
citing Katzenbach and the Court's decision in Meyer v. 
Nebraska, a 1923 case in which the Court struck down a 
prohibition on English in public schools--I'm sorry, in 
languages other than English in public schools.
    As the Supreme Court observed in Meyer, quote, ``the 
protection of the Constitution extends to all, to those who 
speak other languages as well as those born with English on the 
tongue.'' Congress agreed with this reasoning in enacting 
sections 4(f)(4) and 203.
    Now I would like to discuss the extent to which previously 
covered jurisdictions have fulfilled the congressional intent 
in those two sections.
    Congress previously commissioned GAO, in 1984 and in 1986, 
to examine this issue. The purpose of our study is to update 
the cost data collected by the two GAO studies and to determine 
the practice of public elections officials in providing oral 
and written language assistance. A total of 810 jurisdictions 
in 33 States were surveyed. Over half of all the jurisdictions 
in 31 States responded, making this the most comprehensive 
study of its kind ever conducted.
    Some critics have opposed section 203 because they believe 
it imposes high costs on local election officials. Their fears 
have not materialized. The costs of compliance were modest, if 
there are any costs at all. Of the jurisdictions reporting oral 
language assistance expenses, 59.1 percent report incurring no 
expense at all. Similarly, of the jurisdictions reporting 
written language material expenses, 54.2 percent do not incur 
any additional costs. Of the jurisdictions reporting complete 
election expenses, 39.5 percent do not incur any added cost for 
either oral or written language assistance.
    Many covered jurisdictions report election practices that 
fall short of complying with the Voting Rights Act. The absence 
of bilingual oral language assistance in these jurisdictions 
can be a significant deterrent to limited English-proficient 
voters seeking to participate in elections. Sixty-nine 
responding jurisdictions do not report providing any assistance 
at all.
    For instance, less than half of the respondents report 
providing assistance for telephone inquiries from voters in all 
of the covered languages. Significantly, 57.1 percent of the 
responding jurisdictions report they do not have one full-time 
worker fluent in the covered language. Only 38.2 percent report 
having a bilingual coordinator who speaks the covered language 
and acts as a liaison with the covered language groups. Only 
37.3 percent report that they consult with community 
organizations or individuals from the covered language groups 
about providing election assistance in those languages.
    Furthermore, even where jurisdictions provide the bilingual 
materials, many acknowledge not doing so for all materials. 
Most covered jurisdictions acknowledge they do not provide oral 
language assistance at all stages of the election process. 
Nearly two-thirds of responding jurisdictions do not require 
any confirmation of the language abilities of part-time poll 
workers who are supposed to be out there helping the voters. 
Two-thirds of the respondents reported that their poll worker 
training does not include information about the languages 
covered in the jurisdiction. Only 10.3 percent of the 
respondents reported voter assistance practices that are at 
least as protective as section 208. Despite falling short of 
what section 203 requires--and I see my time is expired, if I 
can have another minute to sum up.
    Mr. Chabot. Without objection.
    Mr. Tucker. Most election officials report that they 
support the provision. One respondent described language 
assistance as, quote, ``common sense;'' others emphasize it as, 
quote, ``inclusivity'' and tendency to, quote, ``make voters 
feel more comfortable coming to the polls knowing that there is 
help if it is needed.'' One jurisdiction observes that, quote, 
``language assistance is extremely important in ensuring the 
integrity of the U.S. Election process and the legitimacy of 
government outcomes.'' Many jurisdictions commend the Justice 
Department's enforcement efforts. As another respondent 
observes, quote, ``the Federal Government has done a lot to 
provide minority language assistance; much remains to be 
done.''
    Our study's findings highlight the continuing need for 
language assistance. State and local election officials agree. 
Of the responding jurisdictions, 71.3 percent think that the 
Federal language assistance provision should remain in effect 
for public elections. For these reasons, I recommend in the 
strongest terms that the temporary provisions of the Voting 
Rights Act, including sections 4, 6, 8 and 203, be 
reauthorized.
    Thank you very much for your attention. I will welcome the 
opportunity to answer any questions you may have.
    Mr. Chabot. Thank you.
    [The prepared statement of Mr. Tucker follows:]

             Prepared Statement of Dr. James Thomas Tucker

    Mr. Chairman and Members of the Subcommittee, thank you for your 
invitation to testify on a matter of critical importance to all 
Americans: reauthorization of the temporary provisions of the Voting 
Rights Act that will expire in August 2007. My comments will focus on 
Section 203 of the Act. The language assistance provisions of the 
Voting Rights Act received strong bipartisan support each time Congress 
previously considered them in 1975, 1982, and 1992. As Senator Orrin 
Hatch observed during the 1992 hearings, ``[t]he right to vote is one 
of the most fundamental of human rights. Unless government assures 
access to the ballot box, citizenship is just an empty promise. Section 
203 of the Voting Rights Act, containing bilingual election 
requirements, is an integral part of our government's assurance that 
Americans do have such access.'' \1\ Senator Hatch's observation is 
equally true today, as Members of both Parties and this Subcommittee 
have recognized by addressing the continuing need for Section 203 
nearly two years before it expires.
---------------------------------------------------------------------------
    \1\ Voting Rights Act Language Assistance Amendments of 1992: 
Hearings on S. 2236 Before the Subcomm. On the Constitution of the 
Senate Comm. On the Judiciary [1992 hearings], 102d Cong., 2d Sess., S. 
Hrg. 102-1066, at 134 (1992) (statement of Sen. Hatch).
---------------------------------------------------------------------------
    I am an attorney in private practice in Phoenix, Arizona and an 
Adjunct Professor at the Barrett Honors College at Arizona State 
University. I hold a Doctor of the Science of Laws (or S.J.D.) degree 
from the University of Pennsylvania. I previously worked as a senior 
trial attorney in the Justice Department's Voting Section, in which a 
substantial amount of my work focused on Section 203 enforcement. I 
also have a forthcoming article on Section 203 that will be provided to 
Members of the Subcommittee. I have teamed with Dr. Rodolfo Espino, a 
Professor in ASU's Department of Political Science who holds a Ph.D. in 
Political Science from the University of Wisconsin-Madison, to co-
direct a nationwide study of minority language assistance practices in 
public elections. Our research team includes ten extraordinary students 
in the Barrett Honors College, who have labored countless hours over 
the last eighteen months to produce the information I will discuss 
today.\2\ Our report will be released by the end of this year.
---------------------------------------------------------------------------
    \2\ See Appendix A.
---------------------------------------------------------------------------
    Before discussing our study, I will outline the scope and 
requirements of the language assistance provisions of the Voting Rights 
Act to place our findings into context. The provisions apply to four 
language groups: Alaskan Natives; American Indians; persons of Spanish 
Heritage; and Asian Americans.\3\ Each of these language groups 
includes several distinct languages and dialects.\4\
---------------------------------------------------------------------------
    \3\ See 42 U.S.C. Sec. Sec. 1973l(c)(3), 1973aa-1a(e).
    \4\ See 121 Cong. Rec H4716 (daily ed. June 2, 1975) (statement of 
Rep. Edwards). When the 1975 amendments were enacted, the Bureau of the 
Census defined the language minority groups in the following manner:

      [T]he category of Asian American includes persons who 
      indicated their race as Japanese, Chinese, Filipino, or 
      Korean. The category of American Indian includes persons 
      who indicated their race as Indian (American) or who did 
      not indicate a specific race category but reported the name 
      of an Indian tribe. The population designated as Alaskan 
      Native includes persons residing in Alaska who identified 
      themselves as Aleut, Eskimo or American Indian. Persons of 
      Spanish heritage are identified as (a) `persons of Spanish 
      language' in 42 States and the District of Columbia; (b) 
      `persons of Spanish language' as well as `persons of 
      Spanish surname' in Arizona, California, Colorado, Mew 
      Mexico, and Texas; and (c) `persons of Puerto Rican birth 
---------------------------------------------------------------------------
      or parentage in New Jersey, New York, and Pennsylvania.' ''

S. Rep. No. 94-295 at 24 n.14, reprinted in  1975 U.S.C.C.A.N. 790-91 
n.14 (quoting Letter from Meyer Zitter, Chief, Population Division, 
Bureau of the Census, to House Judiciary Committee, Apr. 29, 1975).
    Jurisdictions are selected for coverage through two separate 
triggering formulas. Under Section 4(f)(4) of the Act, a jurisdiction 
is covered if three criteria are met as of November 1, 1972: (1) over 
five percent of voting age citizens were members of a single language 
group; (2) the jurisdiction used English-only election materials; and 
(3) less than fifty percent of voting age citizens were registered to 
vote or fewer than fifty percent voted in the 1972 Presidential 
election.\5\ This trigger covers jurisdictions that have experienced 
``more serious problems'' of voting discrimination against language 
minority citizens.\6\
---------------------------------------------------------------------------
    \5\ See 42 U.S.C. Sec. 1973b(b).
    \6\ S. Rep. No. 94-295 at 31, reprinted in  1975 U.S.C.C.A.N. 798; 
see also id. at 9, reprinted in  1975 U.S.C.C.A.N. 775 (section 4(f)(4) 
applies to areas ``where severe voting discrimination was documented'' 
against language minorities). Specifically, ``the more severe remedies 
of title II are premised not only on educational disparities'' like the 
less stringent provisions under title III of the 1975 amendments, ``but 
also on evidence that language minorities have been subjected to 
`physical, economic, and political intimidation' when they seek to 
participate in the political process.'' 121 Cong. Rec. H4718 (daily ed. 
June 2, 1975) (statement of Rep. Edwards).
---------------------------------------------------------------------------
    Jurisdictions covered under Section 4(f)(4) must provide assistance 
in the language triggering coverage and are subject to the Act's 
special provisions, including Section 5 preclearance, Section 6 federal 
examiner coverage, and Section 8 federal observer coverage. Section 
4(f)(4) coverage applies in three states (Alaska for Alaskan Natives, 
and Arizona and Texas for Spanish Heritage) and nineteen counties or 
townships in six additional states.\7\
---------------------------------------------------------------------------
    \7\ See Figure C-1. Coverage determinations were published at 40 
Fed. Reg. 43746 (Sept. 23, 1975), 40 Fed. Reg. 49422 (Oct. 22, 1975), 
41 Fed. Reg. 784 (Jan. 5, 1976) (corrected at 41 Fed. Reg. 1503 (Jan. 
8, 1976)), and 41 Fed. Reg. 34329 (Aug. 13, 1976). Covered counties in 
Colorado, New Mexico, and Oklahoma have bailed out pursuant to Section 
4(a) of the Voting Rights Act. See 28 C.F.R. Sec. 55.7(a).
---------------------------------------------------------------------------
    Under Section 203 of the Act, a jurisdiction is covered if the 
Director of the Census determines that two criteria are met. First, the 
limited-English proficient citizens of voting age in a single language 
group: (a) number more than 10,000; (b) comprise more than five percent 
of all citizens of voting age; or (c) comprise more than five percent 
of all American Indians of a single language group residing on an 
Indian reservation. Second, the illiteracy rate of the language 
minority citizens must exceed the national illiteracy rate.\8\ A person 
is ``limited-English proficient'' (or LEP) if he or she speaks English 
``less than very well'' and would need assistance to participate in the 
political process effectively.\9\
---------------------------------------------------------------------------
    \8\ See 42 U.S.C. Sec. 1973aa-1a(b)(2).
    \9\ See generally 42 U.S.C. Sec. 1973aa-1a(b)(3)(B) (defining 
``limited-English proficient'' as the inability ``to speak or 
understand English adequately enough to participate in the electoral 
process''). The 1992 House Report explains the manner in which the 
Director of Census determines the number of limited-English proficient 
persons:

      The Director of the Census determines limited English 
      proficiency based upon information included on the long 
      form of the decennial census. The long form, however, is 
      only received by approximately 17 percent of the total 
      population. Those few who do receive the long form and 
      speak a language other than English at home are asked to 
      evaluate their own English proficiency. The form requests 
      that they respond to a question inquiring how well they 
      speak English by checking one of the four answers 
      provided--``very well,'' ``well,'' ``not well,'' or ``not 
      at all.'' The Census Bureau has determined that most 
      respondents over-estimate their English proficiency and 
      therefore, those who answer other than ``very well'' are 
---------------------------------------------------------------------------
      deemed LEP.

H.R. Rep. No. 102-655 at 8, reprinted in  1992 U.S.C.C.A.N. 772.
    Jurisdictions that are covered under Section 203 of the Act must 
provide written materials and assistance in the covered language. 
Generally, written materials do not have to be provided for 
historically unwritten Alaskan Native or American Indian languages.\10\ 
After the most recent Census Department determinations on July 26, 
2002, five states are covered in their entirety (Alaska for Alaskan 
Natives, and Arizona, California, New Mexico, and Texas for Spanish 
Heritage) and twenty-six states are partially covered in a total of 
twenty-nine languages.\11\ Language assistance must be provided under 
either Section 4(f)(4) or Section 203 in 505 jurisdictions, which 
includes all counties or parishes, and those townships or boroughs 
specifically identified for coverage.\12\
---------------------------------------------------------------------------
    \10\ See 42 U.S.C. Sec. 1973aa-1a(c).
    \11\ See Voting Rights Act Amendments of 1992, Determinations Under 
Section 203, 67 Fed. Reg. 48,871 (July 26, 2002) (to be codified at 28 
C.F.R. pt. 55) (``2002 Determinations''). Two states that previously 
were covered in part by Section 203, Iowa and Wisconsin, no longer are 
covered. See id.; 28 C.F.R. pt. 55, App. Section 203 coverage has been 
extended to political subdivisions of five states not covered 
previously: Kansas, Maryland, Montana, Nebraska, and Washington. See 
2002 Determinations, supra; 28 C.F.R. pt. 55, App.
    \12\ See Figure C-2.
---------------------------------------------------------------------------
    There have been few studies examining how jurisdictions have 
actually implemented the Congressional mandate to provide language 
assistance in public elections. The General Accounting Office conducted 
studies in 1984 and 1997 to determine the costs associated with 
language materials and assistance under Section 203. The 1984 GAO study 
obtained information from 318 political subdivisions and nineteen state 
governments.\13\ The 1997 study reported data from 292 covered 
jurisdictions in 26 states.\14\ Both studies were limited somewhat by 
the inability of many responding jurisdictions to provide the costs of 
bilingual voting assistance. Our study encountered similar 
problems.\15\ Nevertheless, for those jurisdictions that reported 
complete expense data, the costs of compliance generally comprise only 
a small fraction of total election expenses. Congress relied upon the 
1984 GAO report to extend Section 203 in 1992.
---------------------------------------------------------------------------
    \13\ See U.S. Gen. Acct. Off., Bilingual Voting Assistance: Costs 
of and Use During the 1984 General Election 11-12 (1986) (``1984 GAO 
Study'').
    \14\ See U.S. Gen. Acct. Off., Bilingual Voting Assistance: 
Assistance Provided and Costs 1, 33 (1997).
    \15\ See Figure E-1.
---------------------------------------------------------------------------
    The purpose of our study is to update the cost data collected by 
the two GAO studies and to determine the practices of public elections 
officials in providing oral and written language assistance. Our survey 
assesses the availability and quality of assistance in several 
different areas: the use of bilingual coordinators who act as liaisons 
between the election office and the covered language groups; 
recruitment and training of election day poll workers; telephonic 
assistance; oral language assistance at every stage of the election 
process; written language materials provided to limited-English 
proficient voters; outreach and publicity; and the ability of voters to 
receive assistance from the person of their choice. The survey 
concludes by asking about the respondent's views of reauthorization and 
the federal government's role in providing language assistance, and an 
open-ended question about the jurisdiction's experiences under Section 
203.\16\
---------------------------------------------------------------------------
    \16\ The questions are derived from the Voting Rights Act and 
Census definitions. Survey results have been analyzed in light of 
Census 2000 data and the number and type of languages covered in each 
jurisdiction. A copy of the survey is included in Appendix B.
---------------------------------------------------------------------------
    A total of 810 jurisdictions in thirty-three states were surveyed. 
The surveyed jurisdictions include: all jurisdictions specifically 
identified by the Census Department under either Section 4(f)(4) or 
Section 203; all counties in the five states that are covered; all 
cities in covered jurisdictions that the 2000 Census reports as having 
50,000 or more people; a handful of jurisdictions that no longer are 
covered as a result of the 2002 Census determinations; and the chief 
elections officer in each of the surveyed states. Jurisdictions were 
guaranteed anonymity to increase the likelihood that they would 
complete the survey. Over half of all surveyed jurisdictions responded. 
Complete responses were received from 361 jurisdictions in thirty-one 
states, making this the most comprehensive study of its kind ever 
conducted.\17\ The actual number of responses varies because some 
questions did not apply to all respondents and some respondents chose 
not to answer certain questions.
---------------------------------------------------------------------------
    \17\ See Appendix D for more information on the survey respondents.
---------------------------------------------------------------------------
    Some critics have opposed Section 203 because they believe it 
imposes high costs on local election officials. Their fears have not 
materialized. The costs of compliance are modest if there are any costs 
at all. Of the 154 jurisdictions reporting oral language assistance 
expenses, 59.1 percent (91 jurisdictions) incur no extra costs.\18\ 
Similarly, of the 144 jurisdictions reporting written language material 
expenses, 54.2 percent (78 jurisdictions) do not incur any additional 
costs.\19\ Of the 158 jurisdictions reporting complete election 
expenses, 39.5 percent (60 jurisdictions) do not incur any added costs 
for either oral or written language assistance.\20\ Other jurisdictions 
provided narrative responses indicating no additional expenses for the 
following: twenty-three for oral language assistance; thirteen for 
written language materials; and six for both.
---------------------------------------------------------------------------
    \18\ See Figure E-2.
    \19\ See Figure E-5.
    \20\ See Figure E-8.
---------------------------------------------------------------------------
    Respondents attribute the lack of additional costs to several 
factors. Many report hiring bilingual poll workers who are paid the 
same wages as other poll workers. Jurisdictions with Alaskan Native and 
American Indian voters report that bilingual materials are not provided 
because the covered languages are unwritten. Several jurisdictions 
providing bilingual written materials use election officials or 
community volunteers to translate materials, resulting in no additional 
costs. In many cases, printing costs do not increase as a result of 
having bilingual written materials. A number of jurisdictions in New 
Mexico and Texas report that state laws have language assistance 
requirements similar to Section 203, resulting in no additional cost 
for federal compliance.
    Of the 154 jurisdictions reporting complete data for oral language 
assistance, the average cost is 4.9 percent of all election expenses. 
However, the top ten percent of respondents (16 jurisdictions) skew 
this result by reporting average costs of 34 percent. By contrast, the 
remaining 138 jurisdictions report average costs of only 1.5 
percent.\21\ Two factors contribute to the disparate results. Some of 
the sixteen jurisdictions attribute all of their election expenses, 
including costs for hiring permanent staff and Election Day poll 
workers who have to be hired regardless of Section 203, to oral 
language assistance. Furthermore, these sixteen jurisdictions are less 
populated, with an average total population of 40,262 compared to an 
average total population of 170,439 in the remaining jurisdictions. 
When these factors are taken into consideration, our study reveals oral 
language costs close to the average of 2.9 percent originally reported 
by the GAO in 1984.\22\ The average cost of oral language assistance 
remains approximately the same, regardless of the percentage of voters 
who need language assistance.\23\
---------------------------------------------------------------------------
    \21\ See Figure E-3.
    \22\ See 1984 GAO Study at 20.
    \23\ See Figure E-4.
---------------------------------------------------------------------------
    A similar pattern emerges for the cost of written language 
materials. Of the 144 jurisdictions reporting complete data for written 
materials, the average cost is 8.1 percent. Again, the top ten percent 
of all respondents skewed the results, with fifteen jurisdictions 
reporting average written costs of 51.8 percent. The remaining 129 
jurisdictions report average written costs of only 3.0 percent.\24\ 
These disparate results occur for the same reasons as those reported 
for oral language assistance. The fifteen outlying jurisdictions have 
an average total population of 35,664 compared to an average total 
population of 180,529 for the other 129 jurisdictions. All of the 
outliers also attribute most--and in a few cases all--of their total 
written costs to bilingual election materials. When these factors are 
taken into consideration, the average cost of providing written 
language materials is substantially below the 7.6 percent reported by 
the GAO in 1984.\25\
---------------------------------------------------------------------------
    \24\ See Figure E-6.
    \25\ See 1984 GAO Study at 17.
---------------------------------------------------------------------------
    Even where some costs are incurred, most jurisdictions report that 
they are negligible because they target language assistance to only 
those areas that require it. During the 1992 hearings, Congress 
described effective targeting as whether ``it is designed and 
implemented in a manner that ensures that all members of the language 
minority who need assistance, receive assistance.'' \26\ Some 
jurisdictions have heeded these instructions to minimize their costs.
---------------------------------------------------------------------------
    \26\ H. Rep. No. 102-655 at 9, reprinted in  1992 U.S.C.C.A.N. 773. 
The legislative history from the original 1975 amendments also 
describes the use of effective targeting. See Cong. Rec. S13650 (daily 
ed. July 24, 1975) (statement of Sen. Tunney); S. Rep. No. 94-295 at 
69, reprinted in  1975 U.S.C.C.A.N. 820. The Department of Justice 
guidelines explicitly provide for targeting. See also 28 C.F.R. 
Sec. 55.17 (stating the Attorney General's view ``that a targeting 
system will normally fulfill the Act's minority language requirements 
if it is designed and implemented in such a way that language minority 
group members who need minority language materials and assistance 
receive them''). Even opponents of Section 203 have endorsed the use of 
targeting. See generally Statement of Stanley Diamond, Chairman of U.S. 
English, on Proposed Extension of Voting Rights Act, in S. 2236 
Hearings, 102d Cong., 2d Sess., S. Hrg. 102-1066, at 300 (describing 
targeting as the ``least objectionable alternative'' where it is 
limited to voter assistance and does not include ``printing all 
materials in languages other than English'').
---------------------------------------------------------------------------
    Many covered jurisdictions report election practices that fall 
short of complying with the Voting Rights Act. Of the jurisdictions 
responding to the survey, 80.6 percent (287 jurisdictions) report 
providing some type of language assistance to voters: 60.4 percent (215 
jurisdictions) report providing both oral and written language 
assistance, 14 percent (50 jurisdictions) report only providing written 
language materials, and 6.2 percent (22 jurisdictions) report only 
providing oral language assistance.\27\
---------------------------------------------------------------------------
    \27\ See Figure E-11.
---------------------------------------------------------------------------
    The 215 jurisdictions that report providing both oral and written 
language assistance include: 211 jurisdictions covered for Spanish 
Heritage, with an average Hispanic voting age population of 29.0 
percent, of whom 39.0 percent are limited-English proficient; 16 
jurisdictions covered for Asian-American languages, with an average 
voting age population of 13.8 percent, of whom 43.3 percent are 
limited-English proficient; and 26 jurisdictions covered for Alaskan 
Native or American Indian languages, with an average voting age 
population of 12.4 percent, of whom 20.5 percent are limited-English 
proficient.\28\
---------------------------------------------------------------------------
    \28\ See Figure E-12.
---------------------------------------------------------------------------
    Jurisdictions providing language assistance are more likely to be 
covered under Section 4(f)(4) or 203 in their own right than those that 
do not, which tend to be covered sub-jurisdictions such as counties or 
cities. There is no relationship between the jurisdiction's total 
population and whether that jurisdiction provides assistance.
    The 50 jurisdictions that report providing only bilingual written 
materials \29\ generally have large numbers of limited-English 
proficient voters in one or more of the covered languages. This group 
includes 47 Spanish Heritage covered jurisdictions, which have an 
average Hispanic voting age population of 18.3 percent, of whom 45.4 
percent are limited-English proficient. The 13 jurisdictions covered 
for Asian-American languages that provide only bilingual materials have 
higher percentages of Asian voting age population and LEP voters than 
the 16 Asian-American covered jurisdictions providing both oral and 
written language assistance. According to the 2000 Census, these 13 
jurisdictions have an average Asian voting age population of 17.0 
percent, of whom 44.6 percent are limited-English proficient. The 
average percentages of both Spanish Heritage and Asian-American voting 
age citizens in all 50 jurisdictions are high enough to require full 
compliance with Section 203.\30\ Moreover, the absence of bilingual 
oral language assistance in these jurisdictions can be a significant 
deterrent to LEP voters seeking to participate in elections.
---------------------------------------------------------------------------
    \29\ See Figure E-13.
    \30\ Two of the jurisdictions providing only bilingual election 
materials also are covered for American Indian languages. These 
jurisdictions only have an average American Indian voting age 
population of .7 percent, of whom 12.4 percent are limited-English 
proficient.
---------------------------------------------------------------------------
    Of the 22 jurisdictions that report providing only oral language 
assistance, over two-thirds (15 jurisdictions) are covered for Alaskan 
Native and/or American Indian languages, which generally do not require 
written materials. These 15 jurisdictions have an average American 
Indian voting age population of 27.7 percent, of whom 15.0 percent are 
limited-English proficient. Only one out of the 63 respondents covered 
for Alaskan Native or American Indian languages (1.6 percent) report 
receiving voter requests for bilingual election materials. 
Jurisdictions providing only oral language assistance also include: 9 
jurisdictions covered for Spanish Heritage, with an average Hispanic 
voting age population of 23.5 percent, of whom 37.2 percent are 
limited-English proficient; and 1 Asian-American covered jurisdiction, 
with an Asian voting age population of 7.6 percent, of whom 48.5 
percent are limited-English proficient.\31\
---------------------------------------------------------------------------
    \31\ See Figure E-14.
---------------------------------------------------------------------------
    Sixty-nine responding jurisdictions (19.4 percent) do not report 
providing language assistance of any kind. Every covered language group 
is affected by the lack of assistance in these 69 jurisdictions: 41 are 
covered for Spanish Heritage, with an average Hispanic voting age 
population of 18.8 percent, of whom 39.4 percent are limited-English 
proficient; 19 are covered for Alaskan Native or American Indian 
languages, with an average Alaskan Native or American Indian voting age 
population of 17.4 percent, of whom 6.0 percent are limited-English 
proficient; and 7 are covered for Asian-American languages, with an 
average Asian voting age population of 13.8 percent, of whom 40.7 
percent are limited-English proficient.\32\
---------------------------------------------------------------------------
    \32\ See Figure E-15.
---------------------------------------------------------------------------
    The failure of many jurisdictions to provide language assistance in 
the covered languages is attributable to the misperception of election 
officials about the need for assistance. The 271 respondents estimate 
that an average of 5.5 percent of their jurisdiction's voters requires 
oral language assistance in the covered language. However, according to 
the 2000 Census, the average number of limited-English proficient 
persons of voting age in these jurisdictions is actually double that 
number, or 10.9 percent. This divergence between perception and reality 
is the same regardless of how much language assistance the jurisdiction 
provides, if any.\33\
---------------------------------------------------------------------------
    \33\ See Figure E-16.
---------------------------------------------------------------------------
    Less than half of the 326 respondents report providing assistance 
for telephone inquiries from voters in all of the covered languages: 
39.0 percent (127 jurisdictions) provide assistance in all covered 
languages; 26.4 percent (86 jurisdictions) in some covered languages; 
and 34.7 percent (113 jurisdictions) in none of the covered 
languages.\34\ Jurisdictions with a higher percentage of limited-
English proficient voters are more likely to provide telephone 
assistance in the covered languages. They incur minimal costs for doing 
so. Of the 116 jurisdictions providing telephonic language assistance 
that reported their costs, the average cost is only .6 percent of total 
election expenses.\35\ Seventy-four percent (86 jurisdictions) report 
incurring no costs at all. Many jurisdictions report that their low 
costs are attributed to their use of full-time election workers or 
volunteers who are fluent in the covered languages.
---------------------------------------------------------------------------
    \34\ See Figure E-17.
    \35\ The average cost was calculated from the 95 jurisdictions 
submitting complete cost data that responded to this question.
---------------------------------------------------------------------------
    Significantly, 57.1 percent (192 jurisdictions) of the 336 
responding jurisdictions report that they do not have at least one 
full-time worker fluent in the covered language.\36\ There is a strong 
positive relationship between the percentage of limited-English 
proficient voters and whether they employ bilingual full-time workers 
in the covered languages.
---------------------------------------------------------------------------
    \36\ See Figure E-18.
---------------------------------------------------------------------------
    Even fewer jurisdictions report that they use bilingual 
coordinators. Bilingual coordinators act as a liaison between election 
officials and language minority groups, and are routinely required in 
consent decrees and judicial remedies for Section 203 violations. 
However, of the 338 responding jurisdictions, only 38.2 percent (129 
jurisdictions) report having a bilingual coordinator who speaks a 
covered language.\37\
---------------------------------------------------------------------------
    \37\ See Figure E-19.
---------------------------------------------------------------------------
    Department of Justice regulations require that covered 
jurisdictions have ``direct contact with language minority group 
organizations'' to ensure language assistance programs are 
effective.\38\ However, most covered jurisdictions do not do so. Of the 
322 responding jurisdictions, only 37.3 percent (120 jurisdictions) 
report that they consult with community organizations or individuals 
from the covered language groups about providing election assistance in 
those languages.\39\
---------------------------------------------------------------------------
    \38\ 28 C.F.R. Sec. 55.18(e).
    \39\ See Figure E-20.
---------------------------------------------------------------------------
    Similarly, even where jurisdictions provide bilingual materials, 
many acknowledge not doing so for all election materials. Our study 
creates an index of eighteen types of written materials commonly used 
in elections. Of 284 respondents, two-thirds (189 jurisdictions) report 
that they translate more than half of all election materials.\40\ The 
jurisdiction's population has no relationship to whether bilingual 
materials are provided. Several jurisdictions separately acknowledge 
not translating election materials they are required to provide in the 
covered language, including candidate qualifying forms, election 
results, voter instructions, and even ballots. Some report that they 
will do so in the future. Other jurisdictions report they will not 
provide bilingual materials because of cost, the failure of vendors to 
offer translation services, technological issues, or the use of 
bilingual poll workers to translate materials for voters.
---------------------------------------------------------------------------
    \40\ See Figure E-24.
---------------------------------------------------------------------------
    Most covered jurisdictions acknowledge that they do not provide 
oral language assistance at all stages of the election process. Our 
study creates an index of fourteen types of common election activities. 
Of the 328 respondents, only 32.9 percent (108 jurisdictions) report 
that they provide language assistance for more than half of all 
election activities.\41\ Jurisdictions that translate more than half of 
all election materials are more likely to provide oral language 
assistance for election activities than those translating less than 
half of all election materials. The absence of oral language assistance 
is inconsistent with federal guidelines, which provide that Section 203 
``should be broadly construed to apply to all stages of the electoral 
process, from voter registration through activities related to 
conducting elections, including for example the issuance . . . of 
notifications, announcements, or other informational materials 
concerning the opportunity to register . . . the time, places and 
subject matters of elections, and the absentee voting process.'' \42\
---------------------------------------------------------------------------
    \41\ See Figure E-23.
    \42\ 28 C.F.R. Sec. 55.15.
---------------------------------------------------------------------------
    Where oral language assistance is provided, it is impaired by the 
failure of most jurisdictions to ensure that bilingual election workers 
actually are fluent in the covered languages. Nearly two-thirds (210 
jurisdictions) of the 324 responding jurisdictions do not require any 
confirmation of the language abilities of part-time poll workers.\43\
---------------------------------------------------------------------------
    \43\ See Figure E-21.
---------------------------------------------------------------------------
    Responding jurisdictions generally provide regular training for 
poll workers. However, two-thirds of the 328 respondents (217 
jurisdictions) reported that their poll worker training does not 
include information on the languages covered in the jurisdiction. This 
number may be due to the lack of information included about language 
assistance in instructional videos, which are used by 63.8 percent (208 
jurisdictions) of all respondents.\44\
---------------------------------------------------------------------------
    \44\ See Figure E-22.
---------------------------------------------------------------------------
    Poll worker training on voter assistance does not necessarily 
include accurate training on federal requirements. Section 208 of the 
Act, which applies nationwide, provides that ``[a]ny voter who requires 
assistance to vote by reason of blindness, disability, or inability to 
read or write may be given assistance by a person of the voter's 
choice,'' except for the voter's employer or union representative. Only 
10.3 percent (27 jurisdictions) of the 263 respondents reported voter 
assistance practices that are at least as protective as Section 208: 
1.9 percent (five jurisdictions) correctly stated the federal standard; 
and 8.4 percent (22 jurisdictions) permit voters to receive assistance 
from their person of choice, even if it falls into one of the two 
exceptions in Section 208. These voter assistance practices often are 
the result of jurisdictions complying with state laws that are more 
restrictive than Section 208 allows.
    Responding jurisdictions are candid in reporting their election 
practices. Their responses highlight the many challenges they face in 
removing language barriers in elections to voters. Some jurisdictions 
have done a commendable job in responding to these challenges. 
Nevertheless, other jurisdictions still have a long way to go.
    Only twelve jurisdictions express opinions that elections should be 
conducted entirely in English. For example, one respondent notes, ``I 
do not think that it is our responsibility to provide different 
languages. I think everything should be in English only! That is their 
responsibility (voter). Go to Mexico or other countries you have to 
learn their language. You come here and we have to learn theirs. . . 
.'' \45\ A few others criticize enforcement efforts by the Department 
of Justice.\46\
---------------------------------------------------------------------------
    \45\ Respondent 558.
    \46\ Respondents 311, 402, 550.
---------------------------------------------------------------------------
    However, a majority of jurisdictions reject these views. One 
respondent describes language assistance as ``common sense.'' \47\ 
Others emphasize its ``inclusivity'' \48\ and tendency to make ``voters 
feel comfortable coming to the polls knowing there is help there if 
needed.'' \49\ One jurisdiction observes that ``language assistance is 
extremely important in ensuring the integrity of the U.S. Election 
process'' and the legitimacy of government outcomes.\50\ Another 
respondent explains, ``for the longest time I thought that if you live 
in the USA, you should learn English. It is very difficult to help 
someone who doesn't speak the language. My husband hunts in Mexico and 
the few times I went with him I felt helpless because I didn't 
understand Spanish. It is very overwhelming when you need assistance 
and can't get it because of the language barrier.'' \51\ These concerns 
cause some jurisdictions to suggest that Congress should ``broaden the 
requirements.'' \52\
---------------------------------------------------------------------------
    \47\ Respondent 652.
    \48\ Respondent 206.
    \49\ Respondent 949.
    \50\ Respondent 537.
    \51\ Respondent 773.
    \52\ Respondent 616.
---------------------------------------------------------------------------
    Many jurisdictions specifically commend the Justice Department's 
enforcement efforts. Some ask the federal government to ``[h]elp us 
come up with the means of getting rid of the `this is America, English 
only' attitude of many people out there, both voters and election board 
workers.'' \53\ Others request that the Department do even more to 
``enforce existing rules.'' \54\ One jurisdiction requests that voter 
assistance requirements also ``should be enhanced to let citizens with 
limited English skills to bring friend or family to help or they should 
be encouraged to vote absentee.'' \55\ As another respondent observes, 
``the federal government has done a lot to provide minority language 
assistance.'' \56\ Much remains to be done.
---------------------------------------------------------------------------
    \53\ Respondent 839.
    \54\ Respondent 276.
    \55\ Respondent 402.
    \56\ Respondent 434.
---------------------------------------------------------------------------
    Our study's findings highlight the continuing need for language 
assistance. State and local election officials agree. An overwhelming 
majority of the 254 responding jurisdictions, 71.3 percent (181 
jurisdictions) think that the federal language assistance provisions 
should remain in effect for public elections.\57\ For these reasons, I 
recommend in the strongest terms that the temporary provisions of the 
Voting Rights Act, including Sections 4, 6, 8, and 203, be 
reauthorized. Thank you very much for your attention. I will welcome 
the opportunity to answer any questions you may have.
---------------------------------------------------------------------------
    \57\ See Figures E-25 through E-27.
---------------------------------------------------------------------------

                              ATTACHMENT 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENT 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chabot. Mr. Cartagena, you are recognized for 5 
minutes.

TESTIMONY OF JUAN CARTAGENA, GENERAL COUNSEL, COMMUNITY SERVICE 
                            SOCIETY

    Mr. Cartagena. Thank you. Good morning. Chairman and 
Members of the Subcommittee, thank you very much for inviting 
me here to share our observations from the Community Service 
Society on the reauthorization of certain provisions of the 
Voting Rights Act.
    My name is Juan Cartagena. I am general counsel to the CSS 
and a voting rights attorney since 1981, as soon as I came out 
of school, that is. And I have been using the Voting Rights Act 
and its promises of equal opportunity and full political access 
to serve underserved communities in a number of States and 
neighborhoods, especially racial and language minorities.
    CSS is an independent organization in New York City that 
uses research, advocacy, volunteerism, and direct service to 
address issues of poverty and strengthen community life for 
all. I direct a small public interest litigation unit that 
serves to supplement its advocacy work. And since 1989, CSS has 
been using the Voting Rights Act and other legal means to 
ensure full and fair representation of the city's poorest 
neighborhoods.
    My focus of my testimony that you have, I hope, in your 
hands, and also of my remarks today, is essentially on the 
concerns of the Latino communities in New York City, with 
particular emphasis on the voting rights of Puerto Rican 
citizens, but inasmuch as I've done quite a bit of work in 
litigation while in New Jersey, some of my testimony is related 
to that State as well.
    CSS's position in this issue is pretty clear. We have many, 
many years of doing street registration in poor communities, 
and of mounting legal challenges to institutional barriers to 
control political participation. And we strongly support 
bilingual voting assistance provisions that are a valid and 
efficient use and policy that promotes democracy. And there are 
numerous good reasons why the bilingual assistance provision 
203 allow language minority citizens an equal opportunity to 
participate in the process, I will summarize some of them right 
now for you.
    In our view, section 203 is still viable and necessary in 
2005 because the full participation of Latino-language minority 
citizens has yet to be achieved. Equally important, we have 
needed aggressive enforcement activity from both the Department 
of Justice and private attorneys general in both States, New 
York and New Jersey. As a result, in our opinion, the Latino 
community has yet to reap the full benefits that Congress 
promised them 15 years ago in the recent amendment and even 
back further.
    About 75 percent of Latinos in this country speak a 
language other than English at home. That is much higher than 
the national average of 18 percent. About 41 percent of Latinos 
in this country speak English less than very well, which is a 
measure used by the Census Bureau to certify 203 jurisdictions. 
And about 23 percent, almost a quarter, do not speak English at 
all. In New York City, the portion of individuals who are 
Latino who do not speak English very well is even higher, 51 
percent.
    The issues of turnout in the Latino community were also of 
concern in the enactment of the Voting Rights provisions or the 
bilingual assistance provisions of the Voting Rights Act. And 
here I differ with my panelist Mr. McAlpin that the concerns 
regarding the bilingual assistance provisions occurred in `75. 
They occurred as early as 1965, with the enactment of 4(e) that 
specifically was delegated to the benefit of the Puerto Rican 
community. In that sense, turnout issues are still an issue; 
that is, the bilingual assistance provisions were also passed 
by Congress to address issues of lack of turnout. And today, 
recent studies regarding the 2004 election by the Pew Hispanic 
Center demonstrate that 47 percent of eligible Latinos have 
turned out to vote in the 2004 election, compared to about 67 
percent for Whites and about 60 percent for Blacks.
    When you look, Mr. Chairman, at the number of Latino 
elected officials in this country, it is less than 1\1/2\ 
percent of all the officeholders in this country, about 493,000 
somewhat offices, and yet Latinos only hold less than 1\1/1\ 
percent of those offices. Enforcement mechanisms, therefore, 
have been very important.
    In New York, observers from the Justice Department for 
section 203 compliance have been issued as recently as 2004, 
and I should say as recently as 2 days ago at the elections in 
New York City. In Passaic County alone, 450 observers were 
deployed by the Department of Justice in a 5-year span for the 
purpose of ensuring that bilingual assistance under 203 will be 
complied with, for the purpose of also demonstrating that 
Latino voters will not be intimidated against; that's 450 in 5 
years.
    203 is also important as--another reason for its 
reenactment of 203, is also important with respect to the 
voting rights of Puerto Rican citizens in this country.
    I have set forth in my testimony a number of passages from 
an opinion back in 1965, U.S. v. Monroe County. If you have a 
chance to look at that opinion, gentlemen, you will recognize 
that all the principles in that opinion are still true today. 
Puerto Ricans are still subject to the full authority of the 
territory. Puerto Ricans are still citizens of the United 
States. Puerto Ricans still migrate back and forth with no 
inhibition or obstacle whatsoever.
    Spanish is spill a major feature in Puerto Rican life, both 
in Puerto Rican and for Puerto Ricans in the United States. 
About three-quarters of the island population speaks English 
less than very well. About 40 percent speaks no English at all.
    Puerto Ricans here in the United States have different 
characteristics, but still about a quarter of those speak 
English less than very well, and in New York and New Jersey 
that proportion is slightly higher.
    So while English is being spoken at much higher rates, we 
still have a very large proportion of Puerto Ricans, back over 
there on the island and over here, that are not yet mastering 
English. They are close to now almost 3.7 million, according to 
the census, Puerto Ricans in the United States, approaching 3.8 
million on the island of Puerto Rico. Very soon, any day now, 
there will be probably even slightly more.
    So let me try to wrap up with the following points. Section 
203 is very important because, in our opinion, it promotes good 
government, responsive government, and government that actually 
addresses issues with a formula that is self-maintaining. It 
will change over time with demographic changes, coverage 
changes.
    The language characteristics of Latinos that I just talked 
about I think warrant continued coverage. Lack of enforcement 
and compliance warrant continued coverage. We also are in favor 
of actually reducing the numerical thresholds from 10,000 to 
7,500.
    I would be happy to answer your questions if time permits.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Cartagena follows:]

                  Prepared Statement of Juan Cartagena

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chabot. I want to thank all of the panel members for 
their testimony here this morning.
    The question I am going to ask has several parts to it, and 
I am just going to go down the line and let each one of you 
take it. I'm not sure if I'll have any time left when I'm done 
because I'm encouraging Members to stick within their 5 minutes 
because we only have the room until 10 o'clock because there is 
another Committee coming here afterwards.
    First of all, you've all indicated, I think, for the most 
part, with some exceptions, that 203 is still needed. Number 
one, are language minorities currently being discriminated 
against in the election process? And shouldn't Americans be 
encouraged to learn English? And shouldn't we be focusing on 
resources on bettering our schools and our Nation's proficiency 
in the English language? And how is this provision consistent 
with the naturalization process in which individuals applying 
for citizenship are required to learn and understand English? 
And finally, is section 203 consistent with encouraging 
assimilation, or, as some suggest, does the section divide or 
balkanize our Nation?
    And there's a lot in there, and you're invited to take any 
parts that you feel comfortable with, within about a minute 
each, unfortunately. So we will begin with you, Ms. Johnson.
    Ms. Johnson. Thank you. As far as should citizens be 
encouraged to learn English, I think we're not talking about 
Alaskan Natives or Native Americans as naturalized citizens, 
we're talking about them as the indigenous citizens of this 
country. And in 1991 there was a study--in fact, right before 
there was some--203 was taken up again in Congress, the study 
said--Nations at Risk said that 9 percent of the people only 
had limited English proficiency in the fifth grade in English. 
If you think about that, that's only--you're talking 10 years 
later, they're only in their early 20's. And in the 
communities, particularly from the rural parts of Alaska that I 
know best, English is the second language, and that elders 
continue to speak in the language that they know best, and that 
children continue to learn in that environment. Although the 
children learn English in school, it doesn't mean that it 
necessarily is their--and I think that the younger generations 
will probably be more proficient in English. We still have a 
huge sector of our population that is more proficient in their 
own indigenous language, and so we need to accommodate that.
    Mr. Chabot. Thank you.
    Mr. McAlpin.
    Mr. McAlpin. Mr. Chairman, I think what you said, does it 
discriminate against other language minorities? Obviously to 
have ballots in English discriminates against other languages, 
I mean, that's self-evident, but I think the real issue is it 
does not discriminate against anybody on the basis of race or 
ethnicity or national origin, and that point I made in my 
testimony.
    Shouldn't we be encouraging people to learn English? 
Absolutely. The census shows that an immigrant who speaks 
English well earns on average 43 percent more than one who 
doesn't speak it well. If they speak English very well, they 
earn almost twice as much as someone who doesn't speak it well. 
So it's clearly in the country's interest and it's in the 
immigrants' interest to encourage them. It raises their job 
skills and raises their taxpaying power, everything. It's a 
win-win situation. We definitely should be encouraging that.
    Naturalization, it's not consistent with naturalization. 
Now I'm very much aware that we do have exceptions in our 
naturalization laws for people that have been here for over 20 
years, that are 50 years of age or more, but that's an enormous 
concession to people to make that, and it does not follow that 
because we give them that privilege, that we have to then also 
go to the trouble of providing bilingual ballots. They have 
alternatives that are very logical, common-sense and targeted. 
Like I said, to bring an interpreter into the poll with them, 
family member or whoever they want, they have that right; the 
Justice Department has made that clear since 1982.
    Does it divide our Nation? Yes. It takes us down a 
pejorative path that we do not want to go. This country has had 
a successful model since its founding, called the melting pot, 
of assimilating people from every place on Earth to become 
good, solid Americans and part of our community, and we want to 
continue--to turn our back on that, which is what this starts 
to do, it sends a very strong signal that we can be a Nation of 
linguistically isolated colonies instead of one community 
speaking one language and having that common bond. Very 
important, as Barbara Jordan said, to promote policies that 
ensure our civic unity, and that means our linguistic unity as 
well.
    Mr. Chabot. Thank you.
    Mr. Tucker.
    Mr. Tucker. Thank you, Mr. Chairman.
    Really I want to break down my answer in two parts; first 
of all, to debunk this myth that somehow most of the 
individuals who need language assistance are recent arrivals. 
They're not. The 2000 census data shows that among Hispanics, 
60 percent of all Hispanics in the United States were Native-
born Hispanics. One hundred percent of Puerto Ricans, of 
course, are Native-born, as well as all Alaskan Natives and 
Native Americans.
    So that being aside, it's clear just based upon that 
evidence alone that this is not just--nor should it be--some 
sort of division between let's treat the naturalized citizens 
differently than the folks who were Native-born. We need to 
have one standard, it should apply, and that standard should be 
let's make the election system open and accessible to every 
citizen who needs it, regardless of their language abilities.
    Among Latinos, according to the 2000 census, 40.6 percent 
of all Latinos in the United States speak English less than 
very well. And among Native Americans and Alaskan Natives, that 
number is 11.1 percent of all Alaskan Natives and Native 
Americans.
    Mr. Chabot. I hate to cut you off here, but I'm trying to 
be fair to all my colleagues here. So thank you very much.
    Mr. Cartagena.
    Mr. Cartagena. Mr. Chairman, I think the information that I 
provided in my testimony with respect to compliance with 203 
and the issues of Federal observers and litigation promoted by 
the Department of Justice and other attorneys demonstrate that 
there still is a problem of discrimination against language-
minority citizens in this country.
    With respect to your other questions regarding how do you 
square 203 with naturalization and whether or not it's 
encouraging assimilation, I don't think anyone is standing 
before any of you, sir, gentlemen, and demanding that--or 
asserting that language-minority citizens do not want to learn 
English; they all do. The problem is there's not enough 
resources for them to learn English. I cite a New York Times 
article in my testimony that demonstrates that there are no 
places for adults to learn English in virtually all of Queens 
County.
    The point here, sir, is that we're talking about the right 
to vote, one of the most cherished rights in our democracy. And 
to condition that right to vote on complete fluency in English, 
enough to try to even understand ballot initiates and 
referenda--which is not easy to do even in the English 
language, I would submit--I think is a mistake. The right to 
vote is too important to take it away from individual citizens 
who are simply trying to participate in the political process.
    Mr. Chabot. Thank you very much.
    The gentleman from Michigan, the distinguished Ranking 
Member of the full Judiciary Committee, Mr. Conyers is 
recognized.
    Mr. Conyers. Thank you, Mr. Chairman.
    This morning it seems like deja vu. I can't--I almost can't 
believe that I am listening to a debate about whether 
immigrants or recent immigrants need assistance at the polls. 
It's like we've just thrown away 30 years of constitutional 
voting rights history and opened this up as a brand new 
subject.
    And to quote Barbara Jordan, Mr. McAlpin--I don't know if 
you've met or know Barbara Jordan, she was a member of this 
Committee. And for you to take that phrase and suggest or imply 
that it supports your position is something that I would like 
to discuss with you for the rest of the year.
    But this is a stunning discussion here. We've been through 
the courts on this. The law is settled on it. Why we're going 
through all of this may be because of H.R. 997, an English-only 
bill, which my Chairman is or was a co-sponsor of, Mr. Chabot, 
and I don't know what it is we're doing here.
    Immigrants are discriminated, exploited, oppressed, 
economically subjugated. Their rights are violated outside of 
voting. Here is a subservient labor workforce that is 
incredibly discriminated against, and we meet here to discuss 
constitutional niceties about whether or not they ought to--
they need any help with English language in voting. Of course 
they do.
    Now, Michigan is covered--is caught by this provision in 
Allegan County, and we've checked with all the Mexican-American 
Legal Defense and the National Association of Latino Elected 
Officials, NALEO, and compliance seems to be good and going on.
    But let me yield to Mr. Tucker to help me stabilize my 
presence here this morning in the kind of discussion that we're 
having. I would like you to comment on my observations, please.
    Mr. Tucker. Thank you, Mr. Conyers.
    I want to point out again that I think everything that the 
gentleman from Michigan said is absolutely true, that there 
really should not be some sort of bifurcation or have different 
gradations of citizenship. We really should be far beyond that. 
And the fact of the matter is that I'm someone who has worked 
both as someone who has been a trial attorney at Justice 
enforcing the provisions, as well as someone who's worked with 
election officials to come into compliance. Most elections 
officials want to do this. Most elections officials want to do 
the right thing, which is to include these folks.
    To the extent that there's a discussion that somehow this 
is going to balkanize the country, exactly the opposite is 
true. The fact of the matter, as this Committee has recognized, 
as well as the House and Senate recognized when it previously 
considered this provision, most individuals who are immigrating 
to the United States learn English well enough within about 10 
years after arrival. This is a way to integrate them into the 
system, this is a way to make them full Americans. And to be 
talking about in 2005 that we're going to somehow treat 
naturalized citizens in a different manner than folks who 
happen to be Native-born is somewhat astonishing. I mean, 
that's an argument that was made repeatedly in the 19th 
century, and it's really time that we should move beyond that. 
The fact of the matter is assistance does make a difference, 
having people there who could speak their language does make a 
difference.
    The voter assistance provisions of section 208 do not cure 
this problem. The fact of the matter is our studies show that 
90 percent of the jurisdictions--and these are election 
officials--are getting 208 wrong. And this is exactly 
consistent with what is frequently reported in the newspaper, 
where you have people who will bring their mother with them, 
their father, their daughter, their son to give them 
assistance, and they're turned away, they're not allowed to go 
into the voting both. So for those reasons I believe the 
gentleman from Michigan is absolutely right, and 203 is 
necessary.
    Mr. Conyers. I assume, Mr. Cartagena, Esquire, that you're 
in general agreement with the comments of myself and your 
fellow witness?
    Mr. Chabot. The gentleman's time is expired. Please answer 
the question.
    Mr. Cartagena. Yes, I am, definitely.
    Mr. Chabot. The gentleman from Iowa Mr. King is recognized 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. And I sit here and I see 
significant disagreement with a lot of the philosophy that I've 
heard here with the panel, and also I think the tone I hear 
from the questioning. And I think when I look back on this 
section 203, as I understand it, it's more than a generation 
old, and in a generation you can do a lot of things.
    I look back on Lowell Webster, writing the American English 
dictionary for the express purpose of standardizing the 
spelling, the pronunciation and the meaning of the English 
language because it was just English that was being 
colloquialized in the Thirteen Original Colonies. When he 
traveled, he realized there were enclaves--just language 
enclaves, not ethnic enclaves, but just language enclaves being 
established in the original Thirteen Colonies, and he was 
afraid the United States of America would break apart because 
we couldn't communicate with each other to the level that we 
would have an overall binding common communications currency. 
And so he wrote the English language dictionary.
    It was his dream to make it a constitutional amendment, and 
I wish he had gotten that done. In fact, I wish we had never 
seen section 203 because in this generation we might have 
gotten away from all these language barriers, these language 
enclaves that we seem to be promoting here instead of seeking 
to diminish the promotion of assimilation. You need to learn 
English if you want to succeed and participate successfully in 
this society, and we're sending the opposite message by this 
policy.
    My father grew up in a German-speaking household. He went 
to kindergarten the first day speaking only German, and he 
walked into the house that day from that first day, and he said 
hello to his mother in German, and she turned to him and 
pointed her finger at him and said, son, speaking German in 
this household is for you from now forbidden. I came here to 
become an American; I need you to go to school and learn 
English and bring it home and teach it to me. And that's how 
she learned it. And they were proud to be Americans. And she 
sent four sons back to Germany to fight in World War II and one 
to the South Pacific. And so, you know, that's the background 
that I bring to this.
    And I think we're working in the wrong direction by 
promoting ethnic--or I'll say language enclaves. Ethnicity is 
another choice and another subject matter, but we need to pull 
this together. When will we ever get to the point where we can 
get rid of 203? By the testimony that I've heard--and I guess 
I'll turn the question to Mr. Tucker, and what would be your 
goals to--what do you think America is going to look like in a 
generation from now, or two or three, more language enclaves or 
less, if we keep promoting the language dependency?
    Mr. Tucker. Thank you, Mr. King. I would respectfully 
disagree with the gentleman from Iowa with respect to referring 
to the language enclaves. It really isn't. This is literally 
the melting pot of American Society. It's truly a wonderful 
thing.
    I have to say, one of the shining moments that I have seen 
was what sort of impact this has on recent arrivals who do not 
speak English well enough to participate. And bear in mind that 
many of the individuals who do not speak English well enough, 
it's not because they don't want to, in many instances they 
simply are not capable of learning English. Many of the 
individuals, a large percentage who are limited in English 
proficiency in this country, are individuals over the age of 
60. That's particularly true on the Navajo Reservation, 
throughout Indian country, among a large number of Latinos. And 
that, again, is specifically why in 1984, when the GAO 
commissioned the Southwest Voter Education Project to do a 
study, they found that the majority of the individuals who 
needed assistance were Native-born Americans that simply had 
not gotten the educational opportunities that they needed----
    Mr. King. Mr. Tucker, the Hispanics that come across from 
our southern border and arrive here, what is their indigenous 
language?
    Mr. Tucker. It would be Spanish.
    Mr. King. It would.
    Mr. Tucker. Yes.
    Mr. King. And what did their ancestors learn?
    Mr. Tucker. Presumably Spanish.
    Mr. King. What did they speak before that?
    Mr. Tucker. I don't know. I----
    Mr. King. Their Native American language that you're 
addressing. And they adapted Spanish quickly, and they learned 
it in the missionaries. In fact, it became the lingua franca 
that bonded them together. They had the ability to learn 
Spanish a few centuries ago, and I would think that they would 
have the ability to learn English today.
    Can I turn to Mr. McAlpin for a comment, please?
    Mr. McAlpin. Yeah. First of all, thank you, Mr. King, I 
appreciate--and I wanted to reiterate, we are in favor of every 
citizen having the right to vote. And with all due respect to 
the gentleman from Michigan, sir, I did have the privilege of 
meeting Barbara Jordan, I did have the privilege of testifying 
before her commission, and I have enormous respect for her. And 
I think her words speak for themselves. And I think that she 
would be very much, really--I wish she were here to speak for 
herself. I think she would be encouraging that we go down the 
path of unifying people. And what we are saying here is we 
should not treat naturalized citizens differently from American 
citizens, we should treat people the same.
    Now, I also want to just say that everybody has the right 
to get language assistance in the polls. They can bring an 
interpreter with them. There is nothing to prevent local 
election districts from hiring and providing interpreters. 
There is nothing to prevent groups and organizations like Mr. 
Cartagena's from providing volunteer interpreters and something 
like that. There are reasonable targeted opportunities for 
people who cannot speak English to be able to get assistance to 
be able to cast an informed ballot.
    Mr. Chabot. The gentleman's time is expired.
    I hate to cut you off there, but the gentleman from 
Virginia Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Let me follow up on that line of questioning, Mr. McAlpin. 
Apparently you're not offended when election officials are 
courteous and helpful and helping voters get through the 
registration and voting process; is that right? You're not 
offended by that?
    Mr. McAlpin. I most certainly am not. Sometimes when I vote 
early in the morning, they don't seem to be in the best of 
moods, sir.
    Mr. Scott. Do you know what a blank paper ballot is?
    Mr. McAlpin. A blank paper ballot is a ballot that has a 
blank on it for----
    Mr. Scott. The blank ballot voter registration form.
    Mr. McAlpin. Yes, I do.
    Mr. Scott. You know what it is?
    Mr. McAlpin. Yes, sir.
    Mr. Scott. If you have a form that asks the questions, that 
would be helpful. You don't like the blank paper voter 
registration form, do you?
    Mr. McAlpin. I'm not sure I understand your question, sir.
    Mr. Scott. Would you support a blank paper voter 
registration form where you're given a blank piece of paper, 
and you have to fill out all the information; if you leave it 
out----
    Mr. McAlpin. There is no information printed on it in any 
way?
    Mr. Scott. That's right. They used to have those. And it's 
up to the voter, the person trying to register, to put down all 
the information. And if you leave something out, like you 
forgot to answer whether you have been convicted of a felony, 
leave anything out, you leave, they just don't register your 
vote because you just didn't provide all the information.
    Do you support the blank paper voter registration?
    Mr. McAlpin. I don't think so.
    Mr. Scott. Do you support literacy tests?
    Mr. McAlpin. No. Certainly if they're not--if they're used 
in a discriminatory manner, absolutely not.
    Mr. Scott. Do you support literacy tests?
    Mr. McAlpin. No, I do not. But I will say this, that a 
ballot in any language requires literacy.
    Mr. Scott. Should bilingual assistance--I think you said 
bilingual assistance should be allowed.
    Mr. McAlpin. It is allowed under the law right now, it is 
allowed.
    Mr. Scott. If it's provided, is that a good thing or a bad 
thing?
    Mr. McAlpin. It is a good thing for people that cannot read 
English well enough to understand a ballot, to allow them to 
have--they can bring a volunteer, a member, family member, a 
friend, clergyman, anybody else to help them into the poll with 
them----
    Mr. Scott. And if a substantial number of people actually 
need assistance, and that assistance is denied, and large 
groups of constituents, of potential voters in the area can't 
get through the process, that assistance is denied, is that a 
good thing or a bad thing if the leaders in the community deny 
access to balloting by denying assistance to that group of 
people who might not vote for them? Is that denial and 
withholding of assistance a good thing or a bad thing?
    Mr. McAlpin. It's neither a good thing or a bad thing, it's 
an illegal thing.
    Mr. Scott. Illegal now, but that's what we're talking 
about. Now, you said----
    Mr. McAlpin. No, no, sir. With all respect, sir, we're 
talking about printing ballots in certain other languages and 
voter information. We're not talking about providing assistance 
to people who cannot read a ballot in English.
    Mr. Scott. Well, my response to that is you're talking 
semantics.
    Let me go to Barbara Jordan's questions. Such policies 
should help people learn to speak, read and write English 
effectively. Suppose a group wants to change the policy; the 
school board will not provide English as a second language 
assistance; and a group of people, a majority of the people, if 
they can ever vote, could change the policy. Is it a good thing 
or a bad thing that we ought to help the people register to 
vote so they can change the policy so they can help to speak, 
read and write English effectively?
    Mr. McAlpin. Just two comments, sir. We are all in favor 
of--like I said, we believe that every qualified voter should 
be able to vote without exception. And secondly, we certainly 
support increased funding----
    Mr. Scott. Well, you recognize--since my time is ending, 
you recognize, of course, that there would be a perverse 
incentive for the elected officials in the area to do 
everything they can to make sure that certain parts of the 
district don't vote because they might vote them out of office 
and change some policies. And if you supply everybody all the 
assistance they need to get registered and cast an effective 
vote, some of those people might just get voted out of office; 
isn't that right?
    Mr. McAlpin. Well, if they are using their power as elected 
officials to prevent people from voting, they should be voted 
out of office, sir.
    Mr. Scott. Blank paper registration form doesn't prevent 
anybody from voting.
    Mr. Tucker, is it helpful to change the policies--if 
people--if everybody can register and vote?
    Mr. Tucker. I would say no, and the reason is very simple.
    Mr. Scott. No what?
    Mr. Tucker. No, the policy should remain in effect, it 
should not be changed.
    Mr. Chabot. The gentleman's time is expired.
    Mr. Scott. Could I have 30 seconds to finish the question?
    Mr. Chabot. Thirty seconds.
    Mr. Scott. The policy I'm talking about is a policy if a 
community doesn't supply English as a second language 
assistance, and people want to change that policy so they can 
get more language assistance, the way you do that is through 
the political process. Now, if you can't vote, you can't change 
the process.
    Now, isn't it helpful to have everybody voting so that 
everybody can have an equal voice in what the policy ought to 
be?
    Mr. Tucker. It absolutely is, Mr. Scott. I would also note 
that on each occasion when Congress has considered the 
bilingual election provisions, they've specifically noted that 
this should not a be a punitive measure where the voters are 
held accountable for the lack of resources in their 
communities, whether it's ESL or denial of educational 
opportunities in the public school system.
    Mr. Chabot. The gentleman's time is expired.
    The gentleman from Arizona Mr. Franks is recognized for 5 
minutes.
    Mr. Franks. Thank you, Mr. Chairman. And thank you, folks, 
for being here.
    Mr. Cartagena, in hearing your testimony, I understand that 
it is your belief that we should have ballots printed in 
languages that reflect the local need as much as possible. And 
I guess I am sincerely wondering, where do we make the decision 
that ballots should be printed in a particular language? How do 
we make that decision in an unbiased manner? In other words, if 
we're in an area where there is a large Hispanic population or 
a large German population, where do we make a distinction?
    Mr. Cartagena. Well, currently 203 makes that distinction 
for us. 203 has a numerical threshold and a number of other 
indicators that are objectively identifiable. The Census Bureau 
must certify that at least 5 percent of the current 
jurisdiction is limited English-proficient language-minority 
citizens, or 10,000 people, whatever is less.
    Also, the Census determines other issues regarding 
education attainment. When those things happen in combination, 
then the Federal policy is to provide assistance in a language 
other than English.
    Mr. Franks. Well, Mr. Cartagena, I know that you know that 
the goal there, of course, is to help those who cannot 
understand the ballot; but it occurs to me that that's an 
arbitrary decision, because there is someone in the community 
that is not going to be covered under that situation. That's 
just an invariable reality. My wife came here, emigrated from 
the Philippines, and she now speaks four languages. When she 
came to the United States, in English she knew yes, no, and 
what's your name. She consistently beats me at the Word Power 
games now, so it's kind of embarrassing. But the reality is 
that her family had great wisdom in making sure that she could 
understand the common language in this country so that she 
could do well.
    There is an old Iroquois quote that the secret to the 
universe is in the true naming of things, and that can't exist 
unless there is some common language that everyone understands. 
And if we're going to make an arbitrary Federal decision to 
say, well, in this area we're going to print the ballot in two 
languages, this area three languages, no matter what we do, we 
will leave some group of people that don't understand those 
languages out, unless we print the ballot in all known 
languages on the Earth, which is impractical and impossible.
    And it just occurs to me that no matter how far down this 
road we go, that if we don't somehow invite and encourage a 
strong commitment on all the part of our citizens to a common 
language, that we do them a disservice in the long run. And, of 
course, I say that as someone, you know, that is married to a 
lady that speaks three more languages than I do, and again, 
that's embarrassing. But the reality is that if we're not 
careful, where do we stop here?
    I understand the very nature of the principle of creating 
ballots in many languages seems to speak against doing that 
because we can't possibly print it in enough languages. So I 
just, Mr. Chairman, express that for the record, and appreciate 
the panelists for speaking to the issues.
    Mr. Cartagena. If I may just respond, Congressman. A 
wonderful thing when you talk about language, everyone has a 
personal story to say. And I appreciate your comments, and I 
appreciate Congressman King's comments about his family. Let me 
tell you very briefly, then, in my family I learned English 
when my mother migrated from Puerto Rico to the United States 
in the `50's. When she died, she had just been retired only 
about several--a handful of years, never earned more than 
$11,000 a year, worked in a sewing machine factory, knew barely 
enough English to get her way from her house to her job. She is 
from Puerto Rico, sir.
    And the issues that were raised by Mr. King and yourself 
seem to imply that Puerto Ricans, as one subset of the Latino 
community, do not want to learn English and insist on keeping 
Spanish. And the kind of discussion that we all have separates 
the reality that for Puerto Ricans in this country and for 
Puerto Ricans in Puerto Rico, the issues are pretty clear with 
respect to----
    Mr. Franks. Let me just respond to that because I 
understand what you're saying----
    Mr. Cartagena. Service in our military with no questions 
asked.
    Mr. Franks. Mr. Chairman, reclaiming my time here just 
briefly. My time is almost gone.
    I appreciate your thought there. That's not my heart at 
all. The bottom line is, though, that if the language is 
Spanish--why not Ilocano? Why not Tagalog? That leaves my wife 
out and would have left her out in that situation. And I just 
am concerned that if we don't recognize the reality, we always 
leave someone out in that situation, and the only ultimate hope 
for everyone is to bring everybody together in a language we 
all understand.
    Mr. Chabot. The gentleman's time is expired. We have to 
give up this room when the big hand is on the 10. The 
gentlelady from Texas--on the 12, rather. The gentlelady from 
Texas Ms. Jackson Lee has the balance of the time, which I 
think is about 2\1/2\ minutes.
    Ms. Jackson Lee. I thank the Chairman--and I will move very 
quickly--I thank the Chairman and the Ranking Member for 
allowing me to join this discussion. I look forward to being 
with you next week.
    Let me just quickly say I represent the 18th Congressional 
District, had the privilege of having Barbara Jordan as the 
maidenholder of this seat, and also the privilege of her 
support as I ran, and interacting with her principles and 
values.
    Might I just say that utilizing the quote that Mr. McAlpin 
has used, let me just say that since Congresswoman Jordan was 
responsible for the language provision that included at that 
time Hispanics under the Voter Rights Act of 1965, I would 
venture to say that the interpretation of her remarks would be 
such that she would not use the hammer of non-English to deny a 
birthright of the right to vote.
    And I would work with Mr. McAlpin continuously to expand 
English and provide educational resources and make sure our 
schools are credible and that we don't have second- and third-
rate schools. But how that tracks with the voting right is a 
question.
    So Mr. Tucker, here is my question, because we have to 
determine whether we want to continue this provision and 
assistance, and that bears on the question of unduly burdensome 
in terms of the constitutional standard. Would this continuance 
be unduly burdensome on local jurisdictions, and in terms of 
cost and feasibility, as you would juxtapose it against the 
birthright, the constitutional right, the desires of making 
sure that all Americans and all who are eligible to vote can 
vote?
    Mr. Tucker. No, it would not. As the Supreme Court has 
recognized for over 100 years, voting is a fundamental right. 
It's not a fundamental right for some groups and not for 
others, it's a fundamental right for all Americans. It is not 
unduly burdensome.
    I do want to point out that it's not just our study that 
has shown that it's not unduly burdensome, but the two GAO 
studies--which I again would commend to the Committee's 
attention--show the same thing.
    The other point I want to make is that many of the costs 
that can be associated with providing language assistance can 
be limited significantly through effective targeting. Congress 
recognized that targeting should be a key component of it to 
make sure that those folks who need assistance receive it. 
DOJ's guidelines call for the same thing. And jurisdictions 
that effectively target, do it, provide assistance 
significantly.
    Mr. Chabot. The gentlelady's time has expired.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I think we have 
that burden to do that.
    Mr. Chabot. The Ranking Member Mr. Nadler is recognized for 
the purpose of making a brief statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    First of all, let me apologize. This hearing was very 
quickly rescheduled, and I had a previous commitment I couldn't 
get out of until now.
    Let me just say--I will submit questions for the record, 
but I want to say for the record also that I regard the 
bilingual requirements of section 203 as of extreme importance, 
as not burdening anyone. And when you think of the fact not 
only--when you think of the fact that we want to increase 
people's participation in democratic, or a small D, government, 
and that there are plenty of people in this country who are 
citizens for whom English is not their first language, many of 
whom are born in the United States and Puerto Rico who don't 
have to learn English to become a citizen, this is little 
enough to ask. It has been a great service that we've had this 
requirement. It has increased democratic participation, and we 
should not even think of relaxing it in any way.
    Thank you, I yield back.
    Mr. Chabot. I thank the gentleman.
    I thank the witness panel and all the Members for being 
here today. We do have one hearing next week--one hearing on 
the Voting Rights Act next week.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 10:02 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Steve Chabot, a Representative in 
  Congress from the State of Ohio, and Chairman, Subcommittee on the 
                              Constitution

    Welcome and thank you everyone for being here. This is the 
Subcommittee on the Constitution and the eighth in a series of hearings 
this Committee is holding examining the impact and effectiveness of the 
Voting Rights Act over the last twenty-five years. Today this Committee 
will continue its focus on Section 203, the provision authorizing 
bilingual language assistance to American citizens who are members of 
covered language minority groups and who have limited-English 
proficiency. Section 203 is set to expire in 2007, unless reauthorized.
    I would like to welcome our witnesses here today and look forward 
to their testimony.
    I'll be brief this afternoon. Section 203 was enacted in 1975 in 
response to a history of unequal educational opportunities experienced 
by citizens whose dominate language is not English. Section 203 
responds to this disparity by requiring designated jurisdictions to 
provide bilingual election assistance, including notices, instructions, 
information, and ballots, to citizens who are members of a designated 
language minority group and who have limited-English proficiency.
    As we heard yesterday, Section 203 has been an effective tool in 
assisting citizens who are members of a covered language minority group 
to participate in one of the most fundamental element of our system of 
democracy. However, we also heard testimony yesterday that Section 203 
diminishes the importance of the English language in our nation, and 
imposes unnecessary costs on our electoral system.
    These are all important factors that the Committee must consider as 
we continue to examine the VRA. I look forward to continuing this 
discussion and hearing from our witnesses.

                               __________

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Member, Subcommittee on the 
                              Constitution

    When Congress passed the Section 203 of the Voting Rights Act in 
1975, we recognized that through the use of various practices and 
procedures, citizens of language minorities had been effectively 
excluded from participation in the electoral process. Among other 
factors, the denial of the right to vote of such minority group 
citizens was directly related to the unequal educational opportunities 
afforded them, resulting in high illiteracy and low voting 
participation.
    We then determined that, in order to enforce the guarantees of the 
fourteenth and fifteenth amendments to the United States Constitution, 
it was necessary to eliminate such discrimination by prohibiting 
discriminatory voting practices, and by prescribing other remedial 
devices. Thus we saw a direct connection between access to the ballot 
box and the ability to achieve equal educational and economic 
opportunity. Covered language minorities included: American Indians, 
Asian Americans, Alaskan Natives, and Spanish-heritage citizens--the 
groups that Congress found to have faced barriers in the political 
process.
    The legal requirements of Section 203 are straightforward: all 
election information that is available in English must also be 
available in the minority language so that all citizens will have an 
effective opportunity to register, learn the details of the elections, 
and cast a free and effective ballot. Sections 203, in combination with 
Section 4(f)(4) of the Voting Rights Act, have been tremendously 
successful in opening the franchise to citizens who are not native 
English language speakers.
    Some witnesses have challenged the constitutionality of Section 203 
and even questioned the need for the provision. While I approach these 
hearings with an open mind, let me say at the outset, I fully support 
bilingual election assistance. In a growing multi-cultural society it 
only makes sense that we support and require the assistance necessary 
to allow every citizen to cast an effective ballot.
    I believe that it is dangerous to assume that past historical 
discrimination faced by language minorities has suddenly faded away 
with the passing of the millennium. If anything, the growth of our 
immigrant population has exacerbated existing patterns of 
discrimination. We see this in everything from patterns of hate 
violence to the rise of English-only movements which have not quite 
shaken their links to the past prejudices.
    As we move forward, I hope that our witnesses will address the 
continuing challenges faced by language minorities in gaining equal 
access to the ballot box, with a particular focus on litigation and 
patterns of discrimination. Equally important, I hope that they 
highlight the record of compliance by jurisdictions and the fact that 
the provision is not burdensome. At the end of this process, this 
Committee wants no question as to the need and viability of Section 
203.
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Prepared Statement of Chris Norby, Supervisor, Fourth District, 
                   Orange County Board of Supervisors

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Prepared Statement of Arturo Vargas, Executive Director, National 
     Association of Latino Elected and Appointed Officials (NALEO) 
                            Educational Fund

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Voting Rights Cases Brought on Behalf of American Indians and/or 
Interpreting the Voting Rights Act re: Indian Interests. From Jennifer 
    Robinson, Daniel McCool, and Susan Olson: Native Vote: American 
  Indians, the Voting Rights Act, and the Right to Vote. Forthcoming. 
                    Cambridge University Press, 2006

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
